<html>
<title> - OVERSIGHT: REVIEW OF THE ENVIRONMENTAL PROTECTION AGENCY'S MERCURY AND AIR TOXICS STANDARDS (MATS) FOR POWER PLANTS</title>
<body><pre>[Senate Hearing 112-963]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 112-963

OVERSIGHT: REVIEW OF THE ENVIRONMENTAL PROTECTION AGENCY'S MERCURY AND 
              AIR TOXICS STANDARDS (MATS) FOR POWER PLANTS

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON CLEAN AIR 
                           AND NUCLEAR SAFETY

                                 of the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               ----------                              

                             MARCH 20, 2012

                               ----------                              

  Printed for the use of the Committee on Environment and Public Works

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



         Available via the World Wide Web: http://www.fdsys.gov





















                                                        S. Hrg. 112-963

OVERSIGHT: REVIEW OF THE ENVIRONMENTAL PROTECTION AGENCY'S MERCURY AND 
              AIR TOXICS STANDARDS (MATS) FOR POWER PLANTS

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON CLEAN AIR 
                           AND NUCLEAR SAFETY

                                 of the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 20, 2012

                               __________

  Printed for the use of the Committee on Environment and Public Works


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.fdsys.gov
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-023 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001       
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED TWELFTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
FRANK R. LAUTENBERG, New Jersey      JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico                MIKE JOHANNS, Nebraska
JEFF MERKLEY, Oregon                 JOHN BOOZMAN, Arkansas
KIRSTEN GILLIBRAND, New York

                Bettina Poirier, Majority Staff Director
                 Ruth Van Mark, Minority Staff Director
                              ----------                              

              Subcommittee on Clean Air and Nuclear Safety

                  THOMAS R. CARPER, Delaware, Chairman
MAX BAUCUS, Montana                  JOHN BARRASSO, Wyoming
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             LAMAR ALEXANDER, Tennessee
JEFF MERKLEY, Oregon                 MIKE JOHANNS, Nebraska
BARBARA BOXER, California (ex        JAMES M. INHOFE, Oklahoma (ex 
    officio)                             officio)
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             MARCH 20, 2012
                           OPENING STATEMENTS

Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     1
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     4
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................     5
Alexander, Hon. Lamar, U.S. Senator from the State of Tennessee..     7
Merkley, Hon. Jeff, U.S. Senator from the State of Oregon........     8
Cardin, Hon. Benjamin L., U.S. Senator from the State of 
  Maryland, prepared statement...................................   298
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma, 
  prepared statement.............................................   299

                               WITNESSES

McCarthy, Hon. Regina, Assistant Administrator, Office of Air and 
  Radiation, U.S. Environmental Protection Agency................     9
    Prepared statement...........................................    12
    Responses to additional questions from Senator Boxer.........    23
    Response to an additional question from Senator Carper.......    28
    Responses to additional questions from:
        Senator Inhofe...........................................    29
        Senator Vitter...........................................    40
Summers, Robert M., Ph.D., Secretary of the Environment, State of 
  Maryland.......................................................    54
    Prepared statement...........................................    57
    Responses to additional questions from Senator Boxer.........    64
    Response to an additional question from:
        Senator Carper...........................................    65
        Senator Inhofe...........................................    65
Lambert, William E., Ph.D., Director, Epidemiology and 
  Biostatistics Track, Oregon MPH Program; Head, Division of 
  Epidemiology, Department of Public Health and Preventive 
  Medicine, Oregon Health & Science University...................    66
    Prepared statement...........................................    69
James, Rob, Avon Lake City Council, Ward I, Avon Lake, Ohio......    76
    Prepared statement...........................................    78
    Responses to additional questions from Senator Inhofe........    87
Alford, Harry, President/CEO, National Black Chamber of Commerce.    95
    Prepared statement...........................................    97
    Responses to additional questions from Senator Inhofe........   106
Patton, Vickie, General Counsel, Environmental Defense Fund......   111
    Prepared statement...........................................   113
    Responses to additional questions from:
        Senator Carper...........................................   127
        Senator Inhofe...........................................   135

                          ADDITIONAL MATERIAL

Letter from Southern Company to Senators Carper and Barrasso, 
  March 21, 2012.................................................   303
Potential Impacts of EPA Air, Coal Combustion Residuals, and 
  Cooling Water Regulations, prepared for the American Coalition 
  for Clean Coal Electricity, September 2011.....................   304

 
OVERSIGHT: REVIEW OF THE ENVIRONMENTAL PROTECTION AGENCY'S MERCURY AND 
              AIR TOXICS STANDARDS (MATS) FOR POWER PLANTS

                              ----------                              


                        TUESDAY, MARCH 20, 2012

                               U.S. Senate,
         Committee on Environment and Public Works,
              Subcommittee on Clean Air and Nuclear Safety,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Thomas R. Carper 
(Chairman of the Subcommittee), presiding.
    Present: Senators Carper, Lautenberg, Merkley, Barrasso, 
and Alexander.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. This hearing will come to order.
    Good morning, everybody. I appreciate the effort of all of 
our witnesses to be with us today.
    Today's hearing is focused on the Mercury and Air Toxics 
Standard, which the EPA finalized in December this past year. 
Senators will have 5 minutes to make their opening statements.
    I will then recognize the Assistant Administrator for the 
Office of Air and Radiation at EPA to offer her statement to 
the Committee. Following her statement, we will have one round 
of questions, then our second panel of witnesses will come 
forward. And their testimony will be followed by one round of 
questions.
    I am going to give my statement now and yield to whoever 
shows up. If no one else shows up, it is Senator Lautenberg's 
ball game.
    In 1990 Congress overwhelmingly passed and President George 
H.W. Bush signed the Clean Air Act Amendments of 1990. This law 
established the framework for modern day clean air protections 
like the one we are talking about here today. In the Clean Air 
Act Amendments of 1990 Congress identified 188 air toxics--
toxics like mercury, lead, and arsenic--that were known to be 
harmful to public health and needed to be controlled. Many of 
these air toxics are silent killers, getting into food we eat 
as well as the air we breathe and building up in our bodies 
without our knowledge.
    In the Clean Air Act amendments of 1990 Congress also 
established a common sense approach to reducing air toxics. 
Congress required sources of these toxics to implement proven 
technologies which were already being used by 12 percent of all 
actors in their respective industries. After decades of study 
EPA has concluded that coal- and oil-fired power plants emit 
over 60 of these identified air toxics, roughly one-third.
    The EPA has also found that these types of utilities are 
the largest source of mercury emissions in this country.
    Over the years, we have seen through State-led examples 
that clean mercury from dirty coal power plants can 
significantly reduce the mercury in nearby lakes, fish, and 
fowl. Yet 22 years after Congress approved addressing coal- and 
oil-fired power plants, air toxics under the Clean Air Act 
Amendments of 1990, the Federal Government is just now starting 
to curb these harmful pollutants.
    This February the EPA issued the Mercury and Air Toxics 
Standards for power plants, known as the MATS rule, directing 
dirty coal- and oil-fired power plants to use current 
technology to clean up their toxic emissions. As someone who 
has tried for years to work across the aisle to find a way to 
clean up our Nation's power plants, I was encouraged to see the 
EPA finally act to address these harmful emissions.
    Furthermore, as someone who also believes the role of 
Government is to provide a nurturing environment for job growth 
and job preservation while ensuring corporations act as good 
citizens, I was encouraged by how the EPA issued the Mercury 
and Air Toxics Rules.
    This long overdue public health measure will help ensure 
our Nation's utilities are doing their very best to keep our 
air clean, allowing many people in this country to live better, 
healthier, and in some cases longer lives.
    At the same time the EPA has provided a reasonable and 
achievable schedule for our dirtiest power plants to reduce 
harmful emissions. The agency has even allowed extra time if 
needed for industry and States to address any possible local 
reliability concerns.
    As we will hear today, some utilities will decide to close 
down their dirtiest, most inefficient coal plants rather than 
comply. It is just not affordable to modernize some of these 
plants. And as these plants do close, some communities will be 
impacted more than others.
    However, most communities will see great benefits from 
these rules. In fact, nationally, I am told we will see up to 
$90 billion in public health benefits. And as we will also hear 
today, modernizing our coal fleet is expected to be a net job 
creator, not a job killer.
    Which leads me to my final thought. I believe it is 
possible to have a clean environment and a strong economy. I 
believe it is a false choice to say that we can only have one 
or the other. We can have both. And in this country today, we 
must have both. And that is also true for cleaning up our air 
pollution.
    In fact, as the EPA has implemented the Clean Air Act 
Amendments of 1990, our Nation's air has gotten cleaner. 
Electricity rates, I am told, have stayed constant. Our economy 
has grown by some 60 percent. Moreover, for every dollar we 
spend cleaning our air, we have seen some $30 returned in 
reduced health care costs, better workplace productivity, and 
lives saved.
    Now with our economy moving out of a deep recession, some 
people--many of whom are my colleagues--are asking us to choose 
again between the economy and public health. They say we must 
choose between cleaning up our biggest mercury polluters and 
jobs. They say we must choose between keeping our children safe 
from deadly toxics and keeping the lights on. Let me say again, 
we do not have to choose. We can have both; we must have both.
    And on that statement, I look forward to having here an 
open and thoughtful dialogue with our witnesses and with our 
colleagues today.
    I am happy to recognize, on my left from Wyoming, not 
Camden-Wyoming, Delaware, but from the State of Wyoming, 
Senator John Barrasso.
    Good morning.
    [The prepared statement of Senator Carper follows:]

                  Statement of Hon. Thomas R. Carper, 
                U.S. Senator from the State of Delaware

    In 1990 Congress overwhelmingly passed--and President 
George H.W. Bush signed--the Clean Air Act Amendments of 1990. 
This law established the framework for our modern day clean air 
protections--like the one we are talking about today.
    In the Clean Air Act Amendments of 1990 Congress identified 
188 air toxics--toxics like mercury, lead, and arsenic--that 
were known to be harmful to public health and needed to be 
controlled. Many of these air toxics are silent killers--
getting into the food we eat as well as the air we breathe and 
building up in our body without our knowledge.
    In the Clean Air Act Amendments of 1990 Congress also 
established a common sense approach to reducing air toxics. 
Congress required sources of these toxics to implement proven 
technologies--which were already being used by the best 12 
percent of all actors in their respective industries. After 
decades of study the Environmental Protection Agency (EPA) has 
concluded that coal- and oil-fired power plants emit over 60 of 
the identified air toxics. The EPA has also found that these 
types of utilities are the largest source of mercury emissions 
in this country.
    Over the years we have seen through State-led examples that 
cleaning up mercury from dirty coal power plants can 
significantly reduce the mercury in nearby lakes, fish, and 
fowl. Yet 22 years after Congress approved addressing coal- and 
oil-fired power plant air toxics under the Clean Air Act 
Amendments of 1990, the Federal Government is just now starting 
to curb these harmful pollutants. This February the EPA issued 
the Mercury and Air Toxics Standards for Power Plants (MATS) 
rule, directing dirty coal- and oil-fired power plants to use 
current technology to clean up their toxic emissions.
    As someone who has tried for years to work across the aisle 
to find a way to clean up our Nation's power plants, I was 
encouraged to see the EPA finally act to address these harmful 
emissions. Furthermore, as someone who also believes the role 
of Government is to provide a nurturing environment for job 
growth and job preservation while ensuring corporations act as 
good citizens, I was encouraged by how the EPA issued the 
Mercury and Air Toxics Rule.
    This long overdue public health measure will help ensure 
our Nation's utilities are doing their very best to keep our 
air clean--allowing many people in this country to live better, 
healthier, and in some cases, longer lives. At the same time 
the EPA has provided a reasonable and achievable schedule for 
our dirtiest power plants to reduce harmful emissions. The 
agency has even allowed extra time if needed for industry and 
States to address any possible local reliability concerns.
    As we will hear today, some utilities will decide to close 
down their dirtiest, most inefficient coal plants rather than 
comply. It is just not affordable to modernize these plants. 
And as these plants close, some communities will be impacted 
more than others. However, most communities will see great 
benefits from these rules--in fact nationally we will see up to 
$90 billion in public health benefits. And as we will also hear 
today, modernizing our coal fleet is expected to be a net job 
creator not a job killer.
    Which leads me to my final thought: I believe it's possible 
to have a clean environment and a strong economy. I think it's 
a false choice to say that we have to have one or the other; we 
can have both. That is especially true for cleaning up our air 
pollution. In fact, as the EPA has implemented the Clean Air 
Act Amendments of 1990, our Nation's air has gotten cleaner 
while electricity rates have stayed constant and our economy 
has grown by 60 percent. For every dollar we spend cleaning the 
air we've seen $30 returned in reduced health care costs, 
better workplace productivity, and lives saved.
    Now with our economy moving out of a deep recession, some 
people--many of which are my colleagues--are asking us to 
choose again between the economy and public health. They say we 
must choose between cleaning up our biggest mercury polluters 
and jobs. Choose between keeping our children safe from deadly 
toxics and keeping the lights on. Let me say again--we do not 
have to choose. We can have both. And on that note, I look 
forward to having an open and thoughtful dialogue with our 
witnesses and my colleagues today.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Thank you, Mr. Chairman. I prefer to be 
on your right, as I tend to be on the right on most issues. So 
thank you, Mr. Chairman, for the opportunity to testify and to 
talk about this, about the EPA's Utility MACT rule.
    I will wait until the witness pays attention to my 
comments. Thank you.
    Mr. Chairman, EPA's Utility MACT rule is designed to 
protect the public health. In reality, it is not a boon for 
public health. It should be, but it is not. And that is 
unfortunate.
    The rule is meant to address mercury emissions from coal-
fired power plants. Yet over 99 percent of the benefits the EPA 
claims are from reducing particulate matter, even though it is 
strictly regulated under other Clean Air Act programs. This is 
misleading the public about the true cost of this rule.
    EPA estimates that the health benefits for reducing 
mercury--and Mr. Chairman, you made the comment about mercury--
the EPA estimates that the health benefits of reducing mercury 
to between a half a million and $6 million a year. EPA also 
states that the cost of the rule would be $9.6 billion in 2016, 
meaning the costs far, far, far outweigh the benefits, contrary 
to the rhetoric coming out of this agency.
    According to a recent NERA study, the rule, combined with 
EPA's Cross-State Air Pollution Rule, could cost 1.4 million 
jobs. It is not a good investment for the public. The costs 
dramatically outweigh the benefits. Especially if you quantify 
the negative health consequences of unemployment on families 
with children and on the elderly. When the income dries up 
after the husband or wife is laid off at the now-defunct power 
plant, the impacts are devastating to communities and families. 
Especially if you factor in the lost local tax revenue to towns 
where coal-fired power plants close.
    As the witness from Avon Lake, Ohio, is going to testify, 
millions of dollars in property taxes will be lost to his town 
when their coal-fired power plant closes. A big chunk of those 
funds would have gone to the local school and to emergency 
services.
    What programs for children will be cut? How many policemen 
and firefighters will be laid off because of decisions made by 
this Administration?
    We don't have the answers to all of those questions, but 
since plant closures are occurring in towns like Avon Lake 
across the country, we need those answers. As I stated, the 
Utility MACT rule cost $9.6 billion. I am here to ask the 
question, how many lives could we save with that kind of money? 
The answer is many. Not like this, and I think we can and 
should do better.
    So the question remains, why are we doing this? I believe 
this rule is part of the Administration's ongoing war on coal. 
The Administration can't flat-out ban coal, because they know 
Congress wouldn't stand for it in a bipartisan way. Instead, 
they have decided to regulate everything that a coal-fired 
power plant does until it can't function any more.
    The EPA has denied that their rules are going to close that 
many coal-fired power plants. EPA predicted about 9.5 gigawatts 
of electric power retirements in total because of Utility MACT 
in the Cross-State Air Pollution Rule. Instead, according to 
the National Mining Association, over 25 gigawatts have already 
gone on the chopping block, and more are likely. According to 
the association, 25 gigawatts is enough power and energy to 
power 18.8 million homes affordably. Now those homes will have 
to get their power from somewhere else. Power is going to cost 
more, and it's going to cost jobs.
    As the President said when he was running for office, under 
his plan electricity costs would necessarily skyrocket. Seniors 
on fixed incomes, struggling families, and small business 
owners can thank the EPA and this Administration for their 
higher electric bills.
    This rule is a bad bet for the public. It is one of many 
made by this Administration. The Administration is picking 
winners and loser. Unfortunately, the losers are losing, and 
the winners are also losing. President Obama's plan in 
subsidizing Solyndra-style green energy venture capitalists 
while over-regulating affordable coal-fired power has failed 
the public. We need a change.
    That is why I support the efforts by Ranking Member Inhofe 
using the Congressional Review Act, his amendment that would 
send EPA's Utility MACT rule back to the drawing board at EPA. 
It would save millions of jobs.
    Thank you, Mr. Chairman. I look forward to the testimony.
    Senator Carper. Thank you, Senator.
    All right, I think our next speaker is Senator Lautenberg. 
Welcome, good to see you. I would just ask everyone to try and 
limit their statements to 5 minutes, please.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thanks very much, Mr. Chairman.
    I open up with a question. Is there anything more important 
than the health of our children and families? And that is why I 
applaud the Environmental Protection Agency for setting new 
pollution standards for mercury and toxic air pollution. It is 
a major victor in the fight for public health and cleaner air; 
one of the biggest wins in a generation.
    These standards have been in the making since 1990, when 
Democrats and Republicans came together to pass Clean Air Act 
Amendments and require EPA to set strict limits on pollution. 
Today we are finally discussing the new EPA standards that will 
cut toxic air emissions from power plants by as much as 90 
percent. For the first time in history, we will limit mercury 
emissions, brain poison to children.
    Mercury can also badly damage a child's kidney, liver, and 
nervous system. Pregnant women exposed to high levels of 
mercury can give birth to children, to babies who suffer from 
brain damage, learning disabilities, and hearing loss, among 
other conditions. It is frightening, but mercury is only one of 
the many air toxics released by power plants. Power plants are 
also a major source dioxins, which can cause birth defects; 
lead, which can damage nervous systems and reduce children's 
intelligence levels; and arsenic, which causes cancer.
    Clearly, these new rules are desperately needed. And the 
benefits to public health go even farther. According to the EPA 
these rules will prevent more than 100,000 asthma attacks, 
almost 5,000 heart attacks, and up to 11,000 premature deaths 
each year. That is a fantastic result, without even considering 
the reduction in costs to our country.
    We have waited a long time to see this day, but now the big 
polluters and their friends in Congress are stalling, claiming 
it is going to cost businesses too much to comply. It is 
nonsense. EPA's standards simply ensure that all companies use 
modern pollution control. The cleanest plants in our country 
have already demonstrated that they can succeed by investing in 
clean technology.
    And to our colleagues who claim that these measures will be 
too costly to business, we have to ask, what about the health 
costs of breathing dirty air, and how do you put a price on 
human life? We have a distinguished colleague here who is a 
physician. And he asks the question, and it is kind of a 
rhetorical question, how many lives can you save? The question 
is, well, if you can't save a given number, why bother. Well, I 
think we have to bother. I am a grandfather of an asthmatic 
child. My sister was 53 when she had an asthma attack, tried to 
get to the respirator that she carried in a car, fell in a 
parking lot, and 3 days later died.
    So we know what the effects are with an asthma attack. They 
are devastating. When my daughter takes my grandson to play in 
a sports event, she listens to see when he wheezes and finds 
out where the nearest emergency facility is.
    Industry lobbyists have already succeeded in delaying these 
measures for more than a decade, and children are paying the 
price. Further delay is simply reckless. The bottom line is, 
rules and regulations aren't making our children sick--
pollution is.
    But clean air isn't just good for health, it is also good 
for business. And for those who disagree, I say come to New 
Jersey and look at PSE&G, an outstanding power company. They 
cut emissions of mercury and acid gases by 90 percent or more, 
and they created more than 1,600 jobs. We have to look at what 
the positives can be here, and not just throw up our hands, oh, 
well, it is going to cost too much, and thousands of people 
will be out of work. Thousands of people, maybe millions, will 
be healthier.
    PSE&G proves that improving the health of our air can 
improve also the health of our economy. Don't just take my word 
for it. The CEO of PSE&G wrote in the Wall Street Journal that 
the EPA rules will provide certainty to move forward with 
large, job creating investments to modernize America's electric 
power infrastructure. Action is long overdue, and I know that 
we can have clean air, healthy families, and a strong economy. 
I think that these new standards are the way to do it, and I 
look forward to hearing from our witnesses.
    Senator Carper. Thank you, Senator Lautenberg.
    Senator Alexander.

          OPENING STATEMENT OF HON. LAMAR ALEXANDER, 
            U.S. SENATOR FROM THE STATE OF TENNESSEE

    Senator Alexander. Thanks, Mr. Chairman.
    At a roundtable on the Clean Air Amendments that Senator 
Carper hosted recently, former EPA Administrator Bill Riley, 
who was with the first President Bush, said the following: 
``Congress doesn't matter to most of these environmental 
debates; it is all EPA and the courts.'' He was referring to 
the so-called stalemate here in the Congress.
    And that stalemate exists. Senator Carper and I have been 
trying to pass a law that regulates mercury from coal-fired 
power plants in a reasonable way since 2003, ever since I came 
to the Senate. But depending on the political balance here, the 
environmentalists are waiting for a better rule from EPA, and 
the industry is trying to delay, and those are generalizations, 
but they are about right. So we have no results, so we leave it 
to the EPA and the courts. And then we complain about the rule.
    If the rule is defective, if this rule is defective, the 
way to deal with that is not to kill the rule, we have to 
change the law. I think generally speaking we ought to provide 
a clear performance standard and then err on the side of giving 
utilities a reasonable amount of time to do it at a low cost, 
so it can be done. But that is not what we are doing here.
    But if we look at the law, this rule is clearly within the 
law. Utilities have known since 1990 that they would have to 
get mercury out of coal plants. That is what the law says you 
have to do. It specifically mentions mercury. The law that was 
written in 1990--more than 20 years ago--also says that the EPA 
must come up with a rule to do it. The law also says that after 
EPA has a rule the utilities have 3 years to comply with it, 
with some allowance for 3 more years if States and the 
President agree. That is all in the law. That is not in the 
rule, that is in the law.
    And it also says that utilities have to use the maximum 
achievable technology, in other words, the best technology 
available. That is also in the law. So if we don't like the 
rule, we will have to change the law.
    We also know that mercury is a particularly nasty element. 
It is bad. When it gets into the water and is ingested by fish, 
it turns into very toxic stuff, and it can very dangerous to 
small children and to fetuses, and child-bearing women are 
advised not to each much fish as a result of that today. We 
also know that a lot of it comes out of our coal-fired power 
plants.
    My own view is that we need to rely on coal for a long time 
in the United States. But there is no excuse for operating coal 
plants that don't have pollution control equipment on them for 
sulfur, nitrogen, and mercury. If we put that pollution control 
equipment on plants, and some plants would close, primarily 
because they are too old and because natural gas is so cheap 
today, but if we put that on plants then probably we would 
still be using coal for 30 to 40 percent of our electricity 
while we struggle to figure out what to do about carbon that 
comes out of the coal plants.
    We know what to do about sulfur, nitrogen, and mercury. And 
as I have been saying since 2003, we ought to get on with it 
and do it. Many utilities have, particularly the unregulated 
utilities. They have seen this coming for 20 years; they saw 
that the Bush administration had a rule on mercury in 2005. The 
court invalidated that in 2008, and then the court told the EPA 
to write a rule on mercury.
    So we have the Congress telling EPA to write a rule on 
mercury, the courts telling EPA to write a rule on mercury. 
They have now written a rule on mercury that is within the law, 
and if we want to change the rule, we have to change the law.
    My preference would be that utilities would have a certain 
6 years in order to implement the new pollution control 
equipment. The way the rule is written, based upon the law, is 
that they have to do it within 3 years. And then the State can 
give the utility 1 more year under the EPA guidance and the 
law. And then the President can give another 2 years.
    If I were a utility executive I would want a certain 6 
years in order which to make a decision about, am I going to 
close the plant down, or am I going to buy the equipment.
    The last thing I would say, we have heard for several years 
that there is no question but that there is technology 
available to control mercury. It has been there. So for 20 
years utilities have known they have to do this. It is within 
the law to do it. The only question about this, it seems to me, 
in terms of the rule, is that it would be better if we had 5, 
6, 7 certain years. That was more like what we did in the 
Carper-Alexander legislation. But that would require change in 
the law. It couldn't be done by killing the rule.
    So I look forward to the testimony, Mr. Chairman, and I 
think it is important to keep in mind exactly what the law 
requires, which is the Congress' responsibility and what the 
EPA has done in promulgating the rule at the direction of the 
Federal court.
    Senator Carper. I just want to make a minor correction to 
the statement of the Senator from Tennessee. The Clean Air 
Roundtable that he talked about was one actually we co-hosted. 
I did not host it. And we have worked together on these issues 
for a long time. It has been my pleasure to do so.
    Senator Merkley.

            OPENING STATEMENT OF HON. JEFF MERKLEY, 
             U.S. SENATOR FROM THE STATE OF OREGON

    Senator Merkley. Thank you, Mr. Chair.
    I applaud the work of my colleagues on this and the fact 
that this has been in the works for over 20 years. These 
standards which EPA has been instructed both by Congress and by 
the courts to produce will provide enormous health benefits for 
millions of Americans and protect children and adults from 
dangerous air pollution.
    It is estimated they will prevent 90 percent of the mercury 
in coal-burning power plants from being emitted into the air, 
reduce 88 percent of the acid gas emissions from power plants, 
reduce 41 percent of the sulfur dioxide, and reduce fine 
particulate matter by 19 percent. Those have a significant 
health impact.
    There is no reason why almost all oil- and coal-fired 
plants can't comply with these new standards. The technology is 
available, and it is the right thing to do to protect public 
health. The EPA has estimated the health benefits associated 
with this new rule to be $37 billion to $90 billion in 2016. 
That is a dollar number, but the real-life impact that families 
will observe will be the impact on premature deaths, heart 
attacks, chronic bronchitis, asthma, respiratory symptoms, and 
so forth.
    So I look forward to the testimony, and thank you for the 
work of my colleagues.
    Senator Carper. All right, thank you.
    Let me welcome our first witness this morning, Gina 
McCarthy. Ms. McCarthy, as many of us know, is the EPA 
Assistant Administrator for the Office of Air and Radiation. 
Gina has also been doing a terrific job since she joined the 
EPA 400 years ago. Probably seems that long, doesn't it?
    [Laughter.]
    Senator Carper. Ms. McCarthy, you will have 5 minutes to 
read your opening statement. If you go way over that, I will 
rein you in. Try to stay fairly close to that. The full content 
of your written statement will be included in the record. 
Please proceed.

  STATEMENT OF HON. REGINA MCCARTHY, ASSISTANT ADMINISTRATOR, 
  OFFICE OF AIR AND RADIATION, U.S. ENVIRONMENTAL PROTECTION 
                             AGENCY

    Ms. McCarthy. Thank you, Chairman Carper, Ranking Member 
Barrasso, members of the Committee. I appreciate the 
opportunity to testify before you today.
    Last December EPA finalized the Mercury and Air Toxics 
Standards. These standards, required by the Clean Air Act, are 
the first national standards to protect American families from 
power plant emissions of mercury and other toxic air pollutants 
such as arsenic, acid gases, nickel, selenium, and cyanide. 
These long overdue standards will help make our children and 
our communities healthier.
    MATS will eliminate 20 tons of mercury emissions and 
hundreds of thousands of tons of acid gas and toxic pollutants 
each year. The control equipment that reduces these toxic 
emissions will also reduce fine particle pollution. As a result 
MATS will help protect children and adults from the effects of 
exposure to toxic air pollutants, save thousands of lives, and 
prevent more than 100,000 heart attacks and asthma attacks each 
year.
    We project that the annual benefits associated with MATS in 
terms of public health are $37 billion to $90 billion annually. 
And they will far outweigh the annual projected costs of $9.6 
billion. Technologically we know how to achieve these 
standards. MATS relies heavily on available pollution 
prevention control equipment that is already in use and 
installed in more than half of the Nation's coal-fired power 
plants. These standards are also affordable. EPA projects that 
electricity prices on average will rise 3 percent as a result 
of MATS. With MATS and the Cross-State Air Pollution Rule 
combined, the rates are projected to stay well within the range 
of normal historical fluctuations.
    In addition, the updated standards will support thousands 
of good jobs for American workers, who will be hired to build, 
to install, and operate control equipment. We already see 
examples of that job growth happening as a result of this rule.
    My staff recently was told by a plant owner in Tennessee 
that manufactures pollution control equipment that they now 
expect to hire an additional 100 people to manufacture control 
equipment that is going to be used for compliance with the 
Mercury and Air Toxics Standards. Furthermore, the country can 
achieve these reductions while maintaining a strong, reliable 
electric grid. Several EPA and Department of Energy analyses 
conclude that MATS will not adversely affect capacity reserve 
margins in any region of this country.
    A January 2012 Congressional Review Service report reached 
similar conclusions.
    There are liability concerns we heard were largely tied to 
concerns that 3 years was not enough time for compliance. Well, 
we have addressed that concern. Sources will generally have 4 
years, until the spring of 2016, to comply with MATS. And 
reliability-critical units may have an additional year, until 
2017.
    Let me explain. All power plants will have at least 3 
years. That is the latest compliance date available under the 
Clean Air Act. But in addition State and local permitting 
authorities can grant an additional year under certain 
circumstances. And EPA has recommended that this 4 years be 
broadly available to sources that require it for a wide range 
of activities, including completing technology installations, 
constructing replacement power, upgrading transmission lines, 
maintaining reliability, while other sources complete their 
compliance activities.
    My staff and I have already begun and will continue to 
reach out to States to help develop a clear, straightforward 
process for requesting and granting this extension.
    Additionally, EPA has provided a well defined pathway for 
reliability-critical units to get an additional year beyond the 
4 years, using a pathway that was set forth in a policy 
memorandum from EPA's Office of Enforcement and Compliance 
Assurance. While we don't foresee any problems in the country 
maintaining a reliable electric grid as a result of our rules, 
the President has also issued a memo which was released at the 
same time as the MATS rule, reminding EPA, DOE, and FERC to 
work together to ensure that they address any potential 
localized reliability concerns that might arise.
    My staff and I have been and will continue to work with the 
organizations that have responsibility for maintaining the 
Nation's electricity grid to ensure that we address any 
problems that arise. We are also working to help power plant 
owners understand their responsibilities.
    Over the last weeks and months we have had extensive 
meetings with both our environmental regulators as well as the 
power plant industry. We will continue that outreach effort 
moving forward.
    In summary, EPA's final MATS standard will reduce emissions 
of toxic air pollutants from power plants and will lead to 
healthier communities and a safer environment. For 40 years we 
have been able to implement the Clean Air Act, we have been 
able to grow the American economy, and we have been able to 
keep the lights on. MATS will not change that.
    Thank you for this opportunity to testify. I look forward 
to your questions.
    [The prepared statement of Ms. McCarthy follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    
       
    Senator Carper. Thank you so much for that testimony and 
for the leadership that you continue to provide.
    I am going to ask you a series of yes or no questions. I 
don't normally do this, but I am going to do it in this case, 
and if you would, just answer these yes or no.
    The first is, did it take the EPA 10 years after the 
implementation of the Clean Air Act Amendments of 1990 to list 
coal- and oil-fired utilities as sources that should be 
regulated under Section 112 of the Clean Air Act for their air 
toxics emissions?
    Ms. McCarthy. Yes.
    Senator Carper. Second question is, was this listing based 
on numerous health studies as directed by Congress?
    Ms. McCarthy. Yes.
    Senator Carper. Did these studies determine that coal-fired 
power plants are the No. 1 source of mercury emissions in this 
country?
    Ms. McCarthy. Yes, sir.
    Senator Carper. In 2005 did the EPA try to circumvent its 
legal duties to regulate coal- and oil-fired power plants under 
Section 112 Air Toxics program by establishing a cap and trade 
program for mercury?
    Ms. McCarthy. Some would characterize it that way, yes.
    Senator Carper. In 2008 did the U.S. Court of Appeals, I 
think for the District of Columbia, determine the agency, EPA, 
could not create a separate cap and trade program for mercury 
and had to in fact regulate coal- and oil-fired utilities under 
the Section 112 Air Toxics program?
    Ms. McCarthy. Yes, sir.
    Senator Carper. And finally, do you believe the Mercury and 
Air Toxics rule meets previous court decisions and meets EPA's 
legal responsibilities as Congress intended in 1990?
    Ms. McCarthy. Yes, I do.
    Senator Carper. Thank you.
    And now for some essay questions.
    [Laughter.]
    Senator Carper. One of my colleagues believes the EPA has 
overestimated the health benefits from the Mercury and Air 
Toxics rule. Can you explain how the EPA estimated benefits and 
may have underestimated health benefits, rather than 
overestimated them?
    Ms. McCarthy. EPA has used sound science as well as peer-
reviewed methodologies and gone through an extensive 
transparent peer review process to evaluate the health impacts 
associated with this rule. Unfortunately, the data and 
methodology associated with really calculating the costs 
associated with many of the toxic emission reductions that will 
be achieved by these rule we can't calculate effectively. We 
have calculated what we could for mercury reductions related to 
IQ loss, but we know there are many developmental issues 
associated with exposure to mercury. And we certainly know that 
there is a vast number of benefits that we have yet to 
calculate, the result of reductions in acid gases, toxic 
metals, arsenic, cadmium.
    But what we also know is that there are co-benefits 
associated with reductions of particulate matter that are 
associated with the control technologies that are installed as 
a result of this rule. We have calculated all those benefits, 
and we know that the costs associated with this rule are for 
every dollar that you spend, you get $9 in return for health 
benefits. The benefits significantly outweigh the costs.
    Senator Carper. All right.
    In your testimony, you mentioned that--like we did more 
than two decades ago during the debate of the Clean Air Act 
Amendments of 1990--we are hearing claims today that the EPA's 
rule will lead to potential adverse impacts on electrical 
reliability. Despite the numerous studies that conclude that 
the Mercury and Air Toxics Standards will not impair 
reliability, people continue to argue that the Mercury and Air 
Toxics Standard will cause blackouts.
    Can you explain to us today what substantive changes the 
EPA made to the compliance requirements of the rule and also 
what the EPA has done to the compliance framework to ensure 
electric reliability and maximum flexibility?
    Ms. McCarthy. EPA received extensive comment on this rule 
and made a number of changes between proposal and final on the 
basis of data received that allows more flexibility in this 
rule and that we believe enhances the ability of compliance to 
happen in a cost-effective way.
    We have also directly addressed the issue of reliability. 
We have the 3-year window that is available to the Federal 
Government to provide for compliance. We have been very forward 
leaning in terms of advising States to issue that fourth year, 
not just for technology installations on that unit, but to 
maintain the reliability of the electricity supply. We also 
have issued an administrative order and a policy that--I am 
sorry, I should say a policy that outlines an administrative 
order that will allow an additional year to comply, bringing us 
to 2017 in order to comply with these rules.
    We do not believe that that additional time is necessary, 
and the good news is many of the utilities are now agreeing 
with us. For example, Southern Company just announced that they 
are going to be able to achieve compliance much less 
expensively than anticipated.
    Senator Carper. Southern Company?
    Ms. McCarthy. And by 2016.
    Senator Carper. Really? Well, that is good to hear. Thank 
you so much.
    Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    Ms. McCarthy, you state in your testimony that EPA's 
analysis resulted from the utility MACT rule, the coal-fired 
power plant operators will ``choose to retire less than one-
half of 1 percent, or about 4.7 gigawatts.'' And then that the 
EPA predicts that the amount of coal-fired power plants that 
will close as a result of the cross-State air pollution is 
about 4.8 gigawatts.
    Were those predictions made using models, or how do you 
come up with the numbers?
    Ms. McCarthy. They were made using our integrated planning 
model, yes, and information provided by other Federal agencies.
    Senator Barrasso. Because in reality, many more coal-fired 
power plants have announced closures, and that totals about 25 
gigawatts, which is more than EPA's model has predicted. So 
more closures are likely on the way. Were you aware of the 
additional closure announcements before you testified to these 
numbers? Why is the EPA so far off on the predictions?
    Ms. McCarthy. We actually think we are not far off in the 
predictions associated with the impacts of this rule. There are 
many reasons why power plants are closing. Many of the 
announcements that you are reading today were actually 
announced many years ago. There is a change in the energy world 
as a result of natural gas prices, low demand. And many of the 
small coal units are inefficient, they are not being called on 
to supply electricity generation. And a decision is being made 
on a business case about not upgrading those facilities.
    Senator Barrasso. Has the EPA ever done a cumulative impact 
analysis on all of the proposed rule that are going to place 
burdens on coal-fired power plants, the cumulative of coal ash, 
cooling water intake structures, climate change, cross-State 
air pollution as well as mercury reduction?
    Ms. McCarthy. We actually have done--our analysis, our 
economic analysis of the MATS rule consider the Cross-State Air 
Pollution Rule. The other rules that you have identified have 
yet to be finalized.
    Senator Barrasso. So there has not really been a cumulative 
analysis of the impact of all of these on our communities and 
coal-fired power plants and jobs around the country. You are 
going to take them one at a time in spite of the fact that you 
are working on all of them.
    Ms. McCarthy. There have been studies released that claim 
to look at that cumulative impact. But it was done on the basis 
of the rule not being completed, and in many cases done in a 
way that we wouldn't agree was economical.
    Senator Barrasso. But not EPA studies? The EPA has not 
studied it cumulatively?
    Ms. McCarthy. We have not, that is correct.
    Senator Barrasso. OK, thank you.
    I just want to give you a chance to respond to some of the 
written testimony of our second panel. Mr. Robert James, of the 
city of Avon Lake, Ohio, has stated that because of the Avon 
Lake power plant closing, the city is going to lose millions in 
tax revenue; $4 million a year is expected to be cut from their 
public schools budget each year. He stated many of the health 
and welfare programs for the students may need to be 
eliminated. He also stated there will be cuts to emergency 
medical services, including the firing of a paramedic who is 
funded by those tax revenues. He states that this will have a 
direct impact on the health of Avon Lake residents.
    Has the EPA considered the health implications to the 
public of lost tax revenue for emergency medical services and 
schools in any of these cost-benefit analyses that you do?
    Ms. McCarthy. Senator, we have looked at the health 
benefits, we have looked at the economic consequences 
associated with our rule, consistent with the guidance that is 
provided to us and the methodology that has been peer-reviewed.
    Senator Barrasso. But not these specific consequences, 
because it seems to me that the costs are real, and the 
benefits truly are unknown. I have read your assessment, and it 
just seems that the costs are very real to all of these 
communities around the country.
    Ms. McCarthy. I believe we have calculated benefits that 
far exceed the costs. And those benefits are real.
    Senator Barrasso. Well, we will see how that plays out.
    When a plant shuts down in a town, the power often must be 
replaced somehow. And for those plants not shut down but 
retrofitted, the retrofits cost money, too. The fact is, 
retrofitting or building a new power plant or transmitting 
power from somewhere else almost always means paying more for 
the power.
    Folks across America are already suffering from high gas 
prices. So after the EPA's new rules are in effect, how much is 
it going to cost to turn on the lights and keep them on, 
relative to beforehand? I don't know if you have looked at 
specific communities and what this is going to cost in terms of 
the needs in communities around the country.
    Ms. McCarthy. We have done a national analysis, and we have 
looked at the different energy regions. And our assessment is 
that the average increase at its height of cost would be 3 
percent increase in retail price of electricity.
    Senator Barrasso. Three percent, OK.
    You talk about the fact that families should never have to 
choose between a job and healthy air, that they are entitled to 
both. As of now, I count 57 plants closing across 20 States 
because of the Clean Air rules coming out. It is estimated 
29,000 plant workers are going to lose their jobs. EPA has put 
those workers and the families on the unemployment line in the 
middle of a recession. In the EPA's analysis, what kind of 
future is in store for those newly unemployed folks, their 
children, their depends who are not given the option to keep 
their jobs and healthy air?
    Ms. McCarthy. Senator, our analysis, in all due respect, 
doesn't come out with those same numbers. We believe that this 
actually produces 46,000 construction jobs, as well as 8,000 
long-term utility jobs.
    Senator Barrasso. Thank you.
    Thank you, Mr. Chairman.
    Senator Carper. Thank you.
    Senator Lautenberg.
    Senator Lautenberg. Thanks, Mr. Chairman.
    Ms. McCarthy, thank you for your testimony. We looked at 
the situation, after 10 years of delay by polluters, this EPA 
has set an historic standard to cut mercury pollution. 
Unfortunately, there is an effort underway here in the Senate 
to overturn these life saving standards. And if we are forced 
to wait another 10 years for limits on toxic air pollution, how 
many Americans might suffer health consequences and even die 
prematurely as a result?
    Ms. McCarthy. Well, we have estimated that the benefits 
associated with this rule are about 11,000 premature deaths 
avoided each year, up to hundreds of thousands of asthma 
attacks, heart attacks, over a half a million lost work days 
would be avoided with this rule. We are talking about very 
significant health benefits associated with this rule at very 
significantly lower costs.
    Senator Lautenberg. The discussion we are having here is 
something that has to be looked at squarely. What we are saying 
is, look, it is not worth saving all those lives because it is 
going to cost so much. But if you look into the eyes of your 
child or children, or those adults who suffer severely from 
asthma, just one of the diseases that can possibly arise as a 
result of exposure to mercury and the other toxics, it is 
discouraging to hear what is not being said, but is being 
heard. And that is, all those lives are not worth the 
inconvenience and the money that we would have to spend, even 
though we are going to recapture it in spades, as they say.
    So this is a very difficult discussion, and I am alarmed. I 
come out of a strong business career, and I know what it is 
like to take a chance and make investments on the promises of 
tomorrow. And so it ought to be here. We ought to be able to 
look at families who come in with asthmatic children and say, 
worry not, we are going to do something to prevent your kid 
from losing his ability or her ability to participate normally 
with other children. It is money, don't you understand that? It 
is money. No, it is life. And we are kind of moving that aside.
    We know that children are especially susceptible to the 
effects of air pollution. How do you take the unique 
vulnerability of children into account when developing 
pollution standards?
    Ms. McCarthy. Well, we know that mercury is a potent 
neurotoxin that causes a wide range of developmental problems, 
beyond what we have been able to calculate, IQ loss.
    Senator Lautenberg. Have you heard that being challenged at 
all, people saying, no, you are wrong?
    Ms. McCarthy. No, I have not. I have heard it being 
basically inferred that if we can't put a cost number on it, 
then it doesn't count. There are learning and attention 
difficulties associated with exposure to this potent 
neurotoxin. And there are many other effects, particularly in 
children. And in fact the CDC estimates that tens of thousands 
of babies are born in the U.S. every year with high enough 
mercury levels to put them at risk for one or more of these 
developmental problems.
    Senator Lautenberg. These are the invisible results that 
occur?
    Ms. McCarthy. These are the results that we can't 
calculate, but we know are happening.
    Senator Lautenberg. Almost 8 years ago New Jersey set 
pollution limits that are nearly identical to EPA's new 
national standards. Our utilities have cut mercury pollution by 
90 percent, contrary to industry claims that we are hearing 
now, and hear, our lights are still on and electricity rates 
are stable. Did EPA look at the experience of New Jersey and 
other States when developing these standards?
    Ms. McCarthy. We did. We understand that there have been 
approximately 18 States that have gone out to try to address 
these issues aggressively on the toxic side. We want to 
congratulate New Jersey. In fact, what we have identified is 
there is a 20-year-old power plant in New Jersey that has set 
the pace for new construction and standards for new facilities 
because they are already achieving the new source standards 
associated with toxics.
    So we know this can be done. The technology is available, 
it is cost-effective, it is in use at over half of the coal 
facilities that are out there today. We can achieve these 
reductions cost effectively and provide these children a 
healthier future.
    Senator Lautenberg. I can tell you this, that we in New 
Jersey don't like throwing our money away. We don't have 
enough, but we like it less when it affects children and a 
family, when we hear about a child that is disabled as a result 
of an asthmatic condition.
    Thank you very much, Ms. McCarthy.
    Ms. McCarthy. Thank you.
    Senator Carper. Senator Lautenberg, thanks very much.
    Senator Alexander.
    Senator Alexander. Thanks, Mr. Chairman.
    Ms. McCarthy, I keep thinking that if Congress in its 
wisdom had passed Senator Carper's and my bill in 2003 when we 
first introduced it, this would all have been done 4 or 5 years 
ago. We have this ping-pong match that really keeps Congress 
from doing its job.
    My only concern about the rule is the amount of time that 
utilities have to comply with it. And I want to make sure I 
understand what you're saying about that, what the law and EPA 
rules are and what the options are.
    It would seem to me--my general attitude toward 
environmental rules is we ought to come up with a good 
performance standard, and then we ought to give the people who 
are affected by it plenty of time to get there. I think of the 
rule that got rid of sulfur in diesel fuel. I think that took 
10 years from the beginning of the Clinton administration all 
the way to the end, but it got the job done. If I am not 
mistaken, it was something like that.
    And in the process new engines were invented, and the 
truckers supported it and bought the more expensive engines 
because it saved them money on fuel efficiency. So there was 
enough time for everybody to make the adjustment in a 
reasonable way, and the air is a lot cleaner in the Great Smoky 
Mountains because the big trucks aren't using that kind of 
fuel.
    So in this case you are saying that the law is that every 
utility who tries to follow this rule about mercury and other 
use has at least 3 years by law, right?
    Ms. McCarthy. Yes.
    Senator Alexander. Three years. The fourth year the State 
has to approve, is that correct?
    Ms. McCarthy. That is correct.
    Senator Alexander. But if a State does approve a fourth 
year based upon reliability or some other issue, then they are 
4 years. So if I am a utility executive, and I think the State 
will agree with that, that is 4 years.
    Doesn't the President have the opportunity to add 2 years 
to that by executive order?
    Ms. McCarthy. There is a provision in the law that has 
never been used that provides an opportunity for the President 
to do that.
    Senator Alexander. Well, wouldn't it be a good idea for him 
to use it? In this case, I mean, the last version of the 
Carper-Alexander bill in effect would give 5 years. You have 
mentioned the Southern Company said they have now learned they 
may be able to do it a little more rapidly. But why wouldn't it 
make more sense across the country to say, we are going to get 
this done, we don't want to go to court about it, the President 
issues an executive order and says, the State can give you 1 
year and I am going to give you 2 more, so Mr. and Ms. Utility 
Executive, put the pollution control equipment on your plants. 
You have 6 years to do it if you don't close the plant.
    Why wouldn't that be a better, more certain way to deal 
with this issue and maybe other issues?
    Ms. McCarthy. Senator, you are asking a question that is a 
little bit over my pay grade. But let me bring it down.
    Senator Alexander. But you are very experienced.
    [Laughter.]
    Senator Alexander. Your advice would be useful.
    Ms. McCarthy. I would just say that I think that the 
difference between the analogy with sulfur and this is that we 
already have these technologies available and in use today. 
These facilities have been on notice and have made their own 
businesses----
    Senator Alexander. Well, that is true of the unregulated 
facilities. Most of them have gone ahead and done it. But the 
regulated facilities have a harder time going to their State 
commissions and getting approval for an additional cost before 
there is a final rule. So now there is about to be a final 
rule, unless Congress acts to overturn it. And there may be a 
reliability issue, we don't know. Why would we even risk that? 
Why don't we just say to the utilities, OK, you have lots of 
decisions to make, you have several considerations, you have 6 
years to get this done?
    And the problem I am thinking about is that even if you put 
out policy guidance and memos, TVA or the Southern Company or 
any utility might get a citizen lawsuit. They might get hauled 
into court. If they had an executive order, they wouldn't.
    Ms. McCarthy. Senator, we have not identified issues or 
circumstances that would warrant more than the 3-, 4-, or the 
5-year certain pathway that we have provided. The President 
made it very clear in his memo that reliability is a 
significant concern. We are addressing those issues. I just 
don't see that there is a problem that need to be fixed. You 
are deferring health benefits by----
    Senator Alexander. Well, we have been deferring them for 10 
years, because the environmentalists and the utilities keep 
ping-ponging it back and forth, one trying to delay and the 
other trying to take an extreme view. I would much rather see 
us give a certain amount of time to the utilities, and if you 
err on that side, at least you will get it done. Otherwise, 
your rule may get hauled into court, and then we have another 3 
years of delay just like we did with the last rule EPA did. And 
you don't get certainty that way, either. But if utilities saw 
you had 6 years, and it was certain, and your risk of a lawsuit 
was a lot less, you might get a quicker and better 
environmental result. That is what I am suggesting.
    Ms. McCarthy. I certainly appreciate what you are saying, 
but we just don't believe that there are circumstances that 
require time beyond what is already provided.
    Senator Alexander. But the President could, if he wished, 
add 2 years to the 4 years that utilities now can get.
    Ms. McCarthy. There is a provision in the law that requires 
it that relates to national security, yes. We do not believe, 
and we have not recommended that there is any need to take any 
action beyond what we have already accommodated in the law and 
that Congress has provided to us, as well as the policy for the 
administrative order that grants an additional year.
    Senator Alexander. Thank you.
    Thank you, Mr. Chairman.
    Senator Carper. Before you leave us, I am going to ask 
unanimous consent that a 1-page document that I just shared 
with Senator Alexander be made a part of the record. It is a 
document which indicates that Southern Company, which I think 
previously had thought they could not comply with this 
regulation by 2016, now believes that they can, and not for 
more money, but actually for less, I think for about a third 
less. That is what we call in my business better results for 
less money.
    [The referenced document follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    Senator Carper. With that having been said, thank you for 
your testimony, for your good work and that of your team. We 
look forward to continuing to have this dialogue and working 
with you. For our colleagues who weren't able to join us this 
morning, they will have the opportunity to present questions to 
you for--how long? For 2 years.
    [Laughter.]
    Ms. McCarthy. That is added to the 400 I have already been 
here?
    Senator Carper. There you go, starting to stretch out.
    Two weeks, and we would ask that you respond promptly. 
Thank you so much. Have a good day.
    And with that, we will ask our second panel of witnesses to 
join us.
    Good morning, everyone, welcome. Nice to see you all. On 
this panel we are pleased to have joining us Dr. Robert 
Summers, Secretary of the Environment for the State of 
Maryland, whose University of Maryland Terrapins women's 
basketball team is the only team this year to defeat the 
University of Delaware women's basketball team, which plays 
Kansas tonight in the second round of the NCAA women's 
basketball playoffs. So hopefully we will be able to keep it 
down to one loss tonight; we will see. Welcome, all that 
notwithstanding.
    Dr. William Lambert, Director of Epidemiology and 
Biostatistics for the Department of Public Health and 
Preventive Medicine at Oregon Health and Science University. 
Where is that located?
    Dr. Lambert. [Remarks made off microphone.]
    Senator Carper. OK, good, welcome.
    Mr. Rob James, member of the Avon Lake City Council of Avon 
Lake, Ohio, suburb of Cleveland. He explained to me when I 
tried to give him my Ohio State cheer, he explained to me he is 
not a Buckeye. We are glad you are here, nonetheless. Welcome.
    Mr. Harry Alford, President of the National Black Chamber 
of Commerce. It is nice to see you again, welcome, thank you 
for joining us.
    And Vickie Patton, all the way from Colorado, I believe, 
General Counsel of the Environmental Defense Fund. Great to see 
you again, thank you joining us.
    I am going to ask each of you to try to limit your 
statements to about 5 minutes. The full content of your written 
statements will be included in the record. We will let our 
neighbor from the neighboring State of Maryland, who shares the 
DelMarVa peninsula, lead off.
    You are recognized. Please proceed.

    STATEMENT OF ROBERT M. SUMMERS, PH.D., SECRETARY OF THE 
                 ENVIRONMENT, STATE OF MARYLAND

    Mr. Summers. Thank you, Chairman Carper, Ranking Member 
Barrasso, and honorable members of the Committee. I am Bob 
Summers, Secretary of the Maryland Department of the 
Environment.
    Thank you for the opportunity to testify and share 
Maryland's positive experience with the early installation of 
air pollution control technologies required by the 2006 
Maryland Healthy Air Act, technologies that will now be 
required on many of the Nation's coal-fired power plants by the 
Federal Mercury and Air Toxics Standards.
    Achieving compliance with Federal ambient air quality 
standards and reducing levels of mercury and other air 
pollutants has been particularly challenging for Maryland 
because so much of our air pollution is the result of transport 
from upwind, out of State sources. Our monitoring data shows 
that on the worst air quality days up to 70 percent of 
Maryland's ozone pollution is the result of transport. Without 
reductions from upwind sources, Maryland will not achieve 
compliance with Federal ambient air quality standards for ozone 
or with future, more stringent fine particle standards that are 
needed to protect public health.
    In addition, the Chesapeake Bay program estimates that up 
to one-third of the nitrogen that pollutes Chesapeake Bay and 
its rivers comes from the air. The same is true for mercury 
deposition. Most of Maryland's lakes and reservoirs are subject 
to fish consumption advisories for mercury. Mercury emissions 
from upwind sources account for more than 70 percent of the 
mercury deposition in Maryland. This is why Federal regulatory 
initiatives to reduce regional emissions are vitally important 
to improving Maryland's air and water quality.
    We are confident that the MATS rules can be implemented 
without risk to reliability of our electricity supply because 
Maryland successfully implemented the Healthy Air Act and 
required steep cuts in emissions from our coal-fired power 
plants through the installation of the same controls that will 
be required to achieve compliance with MATS.
    The Maryland Healthy Air Act is now fully implemented and 
has achieved its goals. State generators invested approximately 
$2.6 billion in new control technologies and achieved dramatic 
reductions in power plant emissions. Mercury emissions were 
reduced by 90 percent, SO<INF>2</INF> by 80 percent, and 
NO<INF>x</INF> by 75 percent, direct particulate matter by 60 
percent, and hydrogen chloride by 83 percent.
    These are not estimates or projections; they are based on 
actual monitored emissions at our plants. The controls work 
extremely well and in almost all cases have resulted in even 
lower emission rates than were originally projected in 2006. 
The construction and installation of the controls also boosted 
Maryland's economy. The effort resulted in the creation of 
approximately 90 new permanent jobs, and during the peak 
construction period more than 3,000 jobs, including high 
skilled architects, engineers, steamfitters, pipefitters, 
millwrights, master electricians, boilermakers, heavy equipment 
operators, and carpenters.
    The regulations implementing the Act were not finalized 
until 2007, resulting in a relatively short lead time for the 
power plants. NO<INF>x</INF> controls were operational in less 
than 2 years, and SO<INF>2</INF> and mercury controls were 
operational in less than 3 years. Because implementation of the 
Healthy Air Act was occurring at the same time that many power 
plants in the east were installing NO<INF>x</INF> and 
SO<INF>2</INF> controls to achieve compliance with the Clean 
Air Interstate Rule, Maryland's generators expressed serious 
concerns that sufficient labor and materials would not be 
available to complete construction prior to the compliance 
deadlines.
    Similar to the provisions in MATS, the Healthy Air Act 
allowed emergency extension of compliance deadlines to address 
any issues related to reliability or the availability of 
equipment or labor. Significantly, no compliance deadline 
extensions were needed or requested. All of the necessary 
controls were installed in time, and the emission reductions 
occurred as expected.
    Maryland worked very closely with our power plants to 
facilitate a smooth implementation process and timely 
compliance with the emission limitations. This was a key reason 
for our success.
    In closing, I would like to quote Paul Allen of 
Constellation Energy, one of our State's largest power 
companies: ``These systems work effectively and result in 
dramatically lower emissions of mercury, sulfur dioxide, 
particulate matter, and acid gases.'' We know from experience 
that constructing this technology can be done in a reasonable 
timeframe, especially with good advance planning, and there is 
meaningful job creation associated with these projects. We 
commend EPA for moving forward with MATS. We look forward to 
further improvements in our air quality as implementation of 
the new standards reduces upwind transport of emissions into 
Maryland.
    Thank you for giving me the opportunity to testify 
regarding these important air quality issues.
    [The prepared statement of Mr. Summers follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
      Senator Carper. Mr. Secretary, thanks a lot for what you 
said and for what you have done in Maryland.
    For those of us literally in some cases have to breathe the 
pollution that was put up in the air in Maryland that blows our 
way, we especially are grateful for the work you have done and 
for expediting it.
    We have a special guest here from Oregon, and I believe 
Senator Merkley would be pleased to introduce him.
    Senator Merkley. Thank you, Mr. Chairman.
    It is with great pleasure that I welcome Dr. William 
Lambert from Oregon to our panel today. Dr. Lambert is an 
associate professor at the Oregon Health & Science University 
in Portland, where he has conducted groundbreaking work 
quantifying the frequency and magnitude of exposure to toxic 
chemicals in communities and workplaces.
    Dr. Lambert has a longstanding interest in exposure to 
airborne pollutants and related health effects. His research 
has contributed to how we understand exposure-response 
relationships and our susceptibility to carbon monoxide, 
environmental tobacco smoke, silica, and uranium dust and other 
toxic chemicals. He is also studying the effects of pesticides 
on children.
    Before coming to Oregon Health Sciences University, Dr. 
Lambert held a number of positions at the University of New 
Mexico, including professor in the Department of Family and 
Community Medicine at the School of Medicine, as principal 
investigator for the epidemiology and cancer control program at 
the University of New Mexico Health Sciences Center, and 
professor in the Department of Internal Medicine at the School 
of Medicine.
    I am delighted that Dr. Lambert is here today to testify, 
and I look forward to his remarks.
    Senator Carper. Dr. Lambert, before you testify, is any of 
that true?
    [Laughter.]
    Senator Carper. It is pretty impressive. Please proceed.

STATEMENT OF WILLIAM E. LAMBERT, PH.D., DIRECTOR, EPIDEMIOLOGY 
AND BIOSTATISTICS TRACK, OREGON MPH PROGRAM; HEAD, DIVISION OF 
   EPIDEMIOLOGY, DEPARTMENT OF PUBLIC HEALTH AND PREVENTIVE 
          MEDICINE, OREGON HEALTH & SCIENCE UNIVERSITY

    Mr. Lambert. Good morning and thank you, Senator Merkley, 
thank you Chairman Carper, Ranking Member Barrasso, and members 
of the Committee.
    I really appreciate this invitation to present to you on 
public health matters related to the Mercury and Air Toxics 
Standards rule. I believe that my experience as a researcher 
and teacher contribute, but also importantly, it should be 
noted that for 8 years I have served on our State's Science 
Advisory Committee on Air Toxics.
    I will start my testimony by stating that the central tenet 
of the Clean Air Act is the protection of public health, 
specifically the protection of the most susceptible sub-groups 
of the population with an adequate margin of safety. It is 
precisely this principle--the protection of our most vulnerable 
citizens--that the recently finalized MATS is designed to meet, 
by scrubbing mercury, acids, and fine particulate matter from 
the emissions of power plants.
    Who are the most vulnerable and how are they affected? 
Pregnant women, fetuses in children in the womb, even very 
small amounts of mercury damages the developing baby's brain 
and nervous system and impairs their ability to think and 
learn. These health effects are manifest as permanent deficits, 
leading to reduced success in school and eventually lower 
earnings. In childhood, exposure to acid gases in outdoor air 
pollution impairs lung growth and function and predisposes 
children to asthma.
    Another vulnerable group are seniors and those with chronic 
medical conditions. They are affected by acid aerosols and fine 
particulate matter, which worsen emphysema and chronic 
bronchitis and are associated with heart attacks, 
hospitalizations, and premature deaths. Vulnerable groups may 
also be defined by high risk of exposure such as subsistence 
fish consumers and sport fishers who are exposed to methyl 
mercury accumulated in fish.
    Further, minority and low income populations 
disproportionately live in areas with higher levels of outdoor 
air pollution. Compounding their health risks is access and 
utilization of health care, allowing health effects to progress 
to more advanced stages before treatment. Viewed in total, 
these are serious health effects that are spread across broad 
segments of the U.S. population and more commonly affect 
minority and low income groups.
    The scientific evidence supporting benefits for health is 
strong. Relative to other compounds and pollutants, the 
scientific evidence for the toxic effects of mercury on the 
brain is strong, and similarly very strong evidence exists for 
the toxic effects of fine particulate matter and acid gases on 
the lungs and heart. We have good data from well conduced 
epidemiologic studies on human populations as opposed to 
relying solely on data from animal toxicology that then must be 
extrapolated to humans with uncertainty.
    For mercury, the subtle changes in neurologic function are 
observed in multiple locations and populations. This 
consistency increases our confidence that the changes can be 
attributed to exposure to mercury in the womb. For acid gases, 
ozone, and fine particulate matter, damage to lung growth and 
lung function of children and in adults, emergency room visits, 
and premature deaths have been observed in multiple U.S. cities 
using various scientific approaches. The combined health 
effects of reduction of mercury, other metals, acid gases, and 
fine particulate are substantial.
    In the EPA's quantitative risk assessment, a small shift in 
average IQ is forecast in 2016 for an estimated quarter-million 
children exposed to mercury in the womb. Moving the average IQ 
level of such a large number of exposed children is challenging 
and will take many years. But this prediction indicates a good 
start is possible, and there is likely a greater benefit for 
reductions in the upper part of the distribution of most highly 
exposed children.
    The health benefits from the reduction of mercury emissions 
should not be considered in isolation but rather in combination 
with reductions in other toxic compounds which will be scrubbed 
along with mercury from stack emissions. EPA estimates very 
large co-benefits with thousands of avoided cases of chronic 
lung diseases and heart attacks, hospitalizations, lost school 
and work days. The economic valuation of the total avoided 
health effects ranges in the billions.
    In conclusion, the under-appreciated wisdom of the Clean 
Air Act is simply this: by providing protection for the most 
vulnerable, we broadly provide protection to all Americans. 
Mercury, fine particulate matter, and acid gases associated 
with the burning of coal present a clear hazard to the health 
of the public, particularly fetuses, children, and the elderly. 
By reducing exposures to these toxics, we provide protection to 
large cross-sections of the American population. The scientific 
evidence to support the exposures and the health damages to the 
population is extensive.
    The Utility MATS final rule was developed over years with 
considerable thoughtfulness and input from technical experts. 
To public, industry, and lawmakers, this rule should be allowed 
to move to implementation for the protection of the public 
health.
    Thank you very much for your time and consideration.
    [The prepared statement of Mr. Lambert follows:]
    
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
     Senator Carper. Dr. Lambert, thanks so much. Thanks for 
coming all the way from Portland to be with us today.
    And sitting right here next to a fellow from Avon Lake, 
Ohio, where Rob James is a member of the city council.
    Do they call you Councilman James?
    Mr. James. Mr. James is fine, or Councilman James.
    Senator Carper. Councilman James, we are happy you are 
here. You are recognized for 5 minutes. Please proceed.

 STATEMENT OF ROB JAMES, AVON LAKE CITY COUNCIL, WARD I, AVON 
                           LAKE, OHIO

    Mr. James. I would like to thank Chairman Carper, Ranking 
Member Barrasso, and the other members of the Subcommittee for 
inviting me to testify today. My name is Rob James, and I am a 
member of the Avon Lake City Council.
    Avon Lake is a beautiful community of nearly 23,000 
residents on the shores of Lake Erie, approximately 20 miles 
west of Cleveland. Although I am currently an attorney in 
private practice, I previously served as an assistant attorney 
general to the Ohio attorney general, where I represented the 
State of Ohio and its agencies, including the Ohio EPA.
    My work as an assistant attorney general included enforcing 
environmental laws and regulations and ensuring that the 
natural resources of Ohio were protected. However, I am here 
today because I think it is important that Congress understands 
the impacts of environmental rules, such as the Mercury and Air 
Toxics Rule, on local communities like Avon Lake.
    On February 29th of this year GenOn Energy, Inc. announced 
that it would close the coal- and fuel-oil fired electric 
generating plant in Avon Lake in 2015. The Avon Lake Generating 
Station is capable of generating 734 megawatts, providing 
baseload electric capacity and load following capability to the 
grid as well as essential peaking capacity and black start 
capability. This facility plays an important role in providing 
reliable and affordable supplies of electricity.
    The reasons behind the closure are clear. GenOn stated that 
the closure was a result of the rising costs associated with 
EPA's regulations and the fact that overwhelming costs 
associated with complying with the rules could not be recovered 
by continuing to operate the facility. While some may celebrate 
the closure of these types of facilities based on broader 
policy objectives, the loss of power plans has a very real 
impact on the communities in which they are located. These are 
not just abstract costs.
    The most immediate impact on people will be on the 80 
people employed by the Avon Lake facility. The type of quality 
jobs at the Avon Lake plant are increasingly hard to find in 
our country, let alone in Ohio and the greater Cleveland area. 
But this is more about than just the jobs of the people 
employed at the plant. Instead, it is about the ripple effect 
that harms an entire community. In present dollars, closure of 
the Avon Lake generating facility will cost the city of Avon 
Lake over $77,000 in income taxes and at least $268,000 in 
property taxes per year.
    This loss does not just represent the loss of general 
revenue used to fund the city and its programs. Significantly, 
a sizable portion of taxes collected from the facility is used 
to fund Avon Lake paramedics, firefighters, and emergency 
medical services. This loss of nearly $50,000 from the EMS 
budget, which is the amount that will be lost from the closure, 
will reduce the EMS operating budget by half and may represent 
the loss of one paramedic. Undoubtedly, this will have a direct 
impact on the health of Avon Lake residents.
    Even more concerning is the impact the closure will have on 
the Avon Lake school district. At present, Avon Lake schools 
collect $2.4 million in utility taxes alone and another $1.5 
million in real property taxes from the facility. The potential 
loss of $4 million each year will have an unimaginable effect 
on Avon Lake schools. Not only will the loss of revenue 
directly impact the ability of the schools to provide a high 
quality of education for all students, many of the programs 
offered by the school for students with the greatest needs will 
be lost.
    Indeed, many of the health and welfare programs for the 
students my need to be eliminated. For instance, the loss of 
the Avon Lake power plant would force the school district to 
end no-cost programs to help children and teens who are 
struggling with depression, anxiety, ADHD, and the effects of 
trauma or abuse, among other programs.
    In addition, consumers in northeastern Ohio are likely to 
pay more for their electricity. This Committee in the past has 
heard from Catholic Charities of Cleveland, a group on the 
front line of addressing high energy costs. It testified that 
the loss of power plants would have a devastating effect on the 
people of Ohio and our country, particularly the poor and the 
elderly.
    Unfortunately, other communities in addition to Avon Lake 
are suffering from the cost of the MATS rule. In Ohio alone, 
nine other power plants have announced that they will close, 
representing a loss of 5,870 megawatts. Additional losses will 
also be felt outside of Ohio. In each of these communities and 
all the other locations where plants are closing, it will be 
harder to pay for the schools, hospitals, and basic services 
that will keep communities vibrant and healthy.
    As the debate over the MATS rule continues, I hope that 
Congress will keep in mind communities like Avon Lake. While 
the need for environmental regulation is important, EPA must 
understand the consequences of its regulations on our 
communities. Places like Avon Lake need affordable and reliable 
electricity, a strong educational system, and opportunities for 
our economies to rebuild and grow. The U.S. economy is 
struggling to recover, and northeastern Ohio is at the center 
of this struggle. We know that we can have clean air, good 
jobs, and reliable electricity, but only if polices are 
implemented based on sound analysis and with full consideration 
of the real costs of the choices made by regulators.
    It is my hope and belief that there is still time to change 
the debate and apply environmental regulation in a responsible 
manner before more unnecessary damage is done. Thank you again 
for the opportunity to testify this morning.
    [The prepared statement of Mr. James follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
   
    
    Senator Carper. Councilman James, very nice to meet you, 
and welcome you to the Committee. Thank you for coming and for 
your statement.
    I would ask unanimous consent that it be published in the 
record an article from earlier this month from the Sun News 
that begins, Avon Lake Mayor Greg Zilka Sees Opportunity, Not 
Just Gloom, in the news that GenOn Energy will shutter the Avon 
Lake Power Plant in April 2015. I would just ask unanimous 
consent that this be made a part of the record. No objection.
    [The referenced article follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
   
    Senator Carper. With that, Mr. Alford, very nice to see you 
again. Welcome. Thanks for coming back and joining us. You are 
welcome to proceed for 5 minutes.

           STATEMENT OF HARRY ALFORD, PRESIDENT/CEO, 
               NATIONAL BLACK CHAMBER OF COMMERCE

    Mr. Alford. Thank you, Mr. Chairman, and thanks to Ranking 
Member Barrasso, Senator Barrasso, and to the other 
distinguished members of this very important Subcommittee.
    My wife and I founded the National Black Chamber of 
Commerce back in 1993, based on a need of there being a 
national voice for the Black business community. At the time we 
founded the Chamber, according to the Census Bureau there were 
300,000 Black-owned businesses in the United States, doing 
about $38 billion a year in annual revenue. Today I am happy to 
report there are more than 2.1 million Black-owned businesses 
doing over $138 billion a year, according to the U.S. Census 
Bureau.
    We have evolved to be the largest Black business 
association in the world. I am happy to say that we are 
spinning out a sister organization to take care of the 
international policies out there.
    I have an affinity for clean air and a big appreciation for 
the Clean Air Act. I grew up in Los Angeles, California, the 
area of Ventura County. And I know what smog, I know what dirty 
air is. Los Angeles had dirty air beyond any comparison to 
mankind.
    It was hard, it was hard playing football, eyes running, 
skin burning, you can't take a full breath but you know the 
only way you are going to get a college education is to get a 
scholarship. So you played through it anyway. All the while, 
someone 250 pounds is trying to break your back.
    We got through that. L.A. started to get its act together, 
thanks to the Clean Air Act. Today it thrills me to fly into 
LAX and to see the clear skies. We get it. Other cities in the 
United States did, too.
    But I went to Mexico City, and there was that black smoke 
again. I went to Sao Paulo, Brazil and there was that black 
smoke again. Last November I went to Addis Ababa, Ethiopia, and 
there it was, just like Los Angeles back in the 1960s and 
1970s. The point I am making, we can pay the pain here in the 
United States and do all the things we should be doing. But 
unless there is a global solution and a global coordination, it 
is all for naught. It is all for naught. And that is why we 
were successful in defeating the Kyoto Treaty, and I am glad to 
say that we convinced this body to vote 97 to 1 against it. 
Because China, India, Brazil, and other nations, Indonesia, 
were rapidly developing with reckless abandon. So what good 
does it do for the United States to retreat, to retract when 
others are moving ahead?
    The NACS issue, we were successful there. I am happy to 
say, cap and trade was defeated, thanks to the U.S. Senate. But 
somehow, cap and trade is sneaking back. It is coming in little 
forms, and one of those forms is called MATS.
    There is so much at risk, so very much at risk. Coal mines, 
I count 32 utility plants, 1.4 million jobs, and pricing 
increases going sky high. What is going to happen to Corey 
Walker, who has a limousine service in Decatur, Illinois? What 
is going to happen to the people he employs? Gas is sky high 
already. We are looking at the end of the rope. We are 
suffering, and we don't need another hammer on our head. This 
MATS is going to take a lot of my constituents out.
    Like Anna Henderson in Atlanta, Georgia, HA Office 
Furniture, when the schools, when Coca-Cola, when Lockheed 
Martin, some of her prime customers, will retract, in buying 
new furniture, adding to their existing assets. What is going 
to happen to Arnold Baker, Baker Ready-Mix, in New Orleans, 
Louisiana? Here is a guy who was knocked down from Katrina, 
went down to two employees and one truck. Today he has 70 
trucks and over 200 employees. Price of utilities and gasoline 
is going to kill his business.
    I could talk about millions. Silver Gallery in a mall in 
Jackson, Mississippi. People aren't going to buy costume 
jewelry any more. So this family owned business is going to be 
out of whack, it is going down. So that is where we are. Unless 
we have some global solutions and start looking at this thing 
from who is paying the cost. Because a disproportionate amount 
of that cost is going to the African-American community, and we 
cry foul. We will do everything we legally can to fight this 
rule.
    Thank you.
    [The prepared statement of Mr. Alford follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
 
    Senator Carper. Mr. Alford, thanks very much for your 
presence and your testimony today.
    I am pleased to present Vickie Patton, who has joined us 
from the Environmental Defense Fund.
    Welcome; thank you for joining us.

  STATEMENT OF VICKIE PATTON, GENERAL COUNSEL, ENVIRONMENTAL 
                          DEFENSE FUND

    Ms. Patton. Thank you, Chairman Carper, Ranking Member 
Barrasso, members of the Committee.
    On February 16th, 2012, the Environmental Protection Agency 
published long overdue protections for our families and for our 
children to address the most toxic air pollutants in our 
communities from the largest single sources of mercury and acid 
gases and arsenic. It is not surprising that over 800,000 
Americans submitted comments strongly encouraging EPA to take 
this action. And it is based on a very strong foundation; a 
number of States across our country have adopted mercury 
pollution control standards, long before EPA took action, 
States such as Delaware and New Jersey and Colorado and Oregon 
and Illinois and Maryland and Montana have led the way in 
establishing a strong State policy foundation to help us solve 
these problems.
    We are incredibly grateful for the entrepreneurs, the 
innovators across American who help deliver smart solutions to 
help us solve these problems, companies like ADA Environmental 
Solutions in my home State of Colorado, which has kind of 
pioneered the advances in mercury pollution control technology. 
In 2009 the General Accounting Office said our Nation has 
solutions to mercury, we can achieve a 90 percent reduction of 
all coal types, in large part due to the innovation of 
companies across America. There are power companies who have 
been leading the way and preparing for these standards for many 
years. And they show us that this can all be achieved.
    There are also just concerned citizens who have lent their 
voices to this issue and helped encourage policymakers to carry 
out what are long overdue protections. It is all about voices 
across America working together to solve big problems.
    There has been a lot written and a lot said about the 
Mercury and Air Toxics Standards. But I would like to focus on 
the standards that were actually adopted and the standards that 
are actually in place, and what has been said about those. When 
the Environmental Protection Agency completed its work on these 
standards, the American Public Health Association, the American 
Lung Association, the American Heart Association, the League of 
United Latin American Communities, the NAACP, the Consumers 
Union, Small Business Majority, voices across America said 
thank you very much, Administrator Lisa Jackson, for leading 
the way and finally ending this delay in protecting Americans 
from this very serious toxic air pollution.
    There are a number of power companies that have responded 
to these standards since they were in fact adopted. Xcel 
Energy, one of the Nation's largest investor-owned utilities 
with service territory across the Midwest and the Southwest, 
said, we are well positioned to comply. There are a number of 
companies, power companies, major power companies who have 
said, we are well positioned to comply. It includes rural co-
ops, it includes municipal utilities, it includes independent 
power producers.
    Duke Energy, on February 16th, briefed investors, and it 
said, we are adjusting our estimations of the costs. They are 
going to be on the low side of what we have previously sort of 
communicated to the public. As you indicated, Senator Carper, 
the Bank of America, Merrill Lynch, issued some analysis on 
March 15th, just a few days ago, indicating that Southern 
Company is prepared to comply by 2016, within the 4 years that 
EPA has provided for with its adaptive compliance framework.
    One of the biggest detractors and critics of this rule has 
been American Electric Power. It has been sort of long, sort of 
critical of EPA's efforts here. Well, on February 10th, the 
President and CEO of American Electric Power briefed investors, 
and Nick Akins said that, in Ohio, the cost of compliance will 
be a small fraction of what we previously predicted. Instead of 
$1.1 billion, it will cost $400 million for us to comply in 
Ohio. He also indicated that he could count on his hand, a 
single hand the units that might need additional time to 
comply. And his executive vice president, Mark McCullough, 
indicated EPA's final rule are much more manageable than we 
previously have indicated.
    This is not surprising. The time-tested history of the 
Clean Air Act has been delivering cleaner, healthier air at a 
small fraction of the predicted cost. We have seen this time 
and time again. It is a great American success story.
    And Senator Carper, we are here today in many respects due 
to your steadfast leadership. On behalf of moms across America, 
you have challenged Americans to work together to find 
solutions to this very serious problem. You have helped remind 
us that this is not a red State issue, this is not a blue State 
issue, these are shared American values in protecting our 
children's health. You have helped us realize these final 
standards that give meaning to the Clean Air Act's vision that 
every child be raised in a community, in a home free of the 
most toxic pollutants in our environment, so they can realize 
their full potential.
    Thank you for all you have done.
    [The prepared statement of Ms. Patton follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
 
    
    Senator Carper. Thank you for those kind words.
    I would ask that Ms. Patton be granted an additional 5 
minutes to continue.
    [Laughter.]
    Senator Carper. No, thank you so much. There is an old 
saying, flattery won't hurt you if you don't inhale, so I am 
not breathing up here.
    All right, let's go to questions. I think I get the first 
couple of questions, and then will yield to Senator Barrasso.
    My first question is to our neighbor from Maryland, 
Secretary Summers. In your testimony, you discussed Maryland's 
experience with a similar State regulatory initiative, the 
Healthy Air Act. You mentioned that the implementation of the 
Healthy Air Act was happening at the same time that many power 
plants in the east were installing controls to achieve 
compliance with the EPA's Clean Air Interstate Rule. It sounds 
like Maryland's generators expressed similar concerns that we 
are hearing today; is that correct?
    Mr. Summers. Yes.
    Senator Carper. All right, thanks.
    It sounds like the labor and materials were available and 
none of your companies needed a lot more time; is that correct?
    Mr. Summers. None of them needed more time.
    Senator Carper. All right, thank you.
    Did Maryland experience blackouts as a result of this law? 
Did you have blackouts in Maryland because of this law?
    Mr. Summers. No.
    Senator Carper. Did Maryland experience electricity price 
spikes?
    Mr. Summers. No price spikes, either.
    Senator Carper. Why do you think that was the case?
    Mr. Summers. Well, I think that as the quote I read from 
Paul Allen indicated, that these things work very well and 
could be implemented in the proper timeframe. And it did not 
cause any of the impacts that had been predicted.
    Senator Carper. All right, thanks.
    A question for Ms. Patton and for Dr. Lambert, if I could. 
Some of my colleagues have questioned the reasoning of cleaning 
up mercury. They have questioned why we would spend money in 
this country to clean up this neurotoxin when other countries 
are contributing to mercury in the atmosphere. Could each of 
you take maybe a minute apiece to discuss how cleaning up 
mercury from our largest source--that is coal-fired power 
plants--can have a beneficial impact on citizens' health? Do 
you believe that cleaning up mercury from our coal plants is 
worth the investment?
    Ms. Patton. Senator Carper, the American Academy of 
Pediatricians, the American Nurses Association, took the 
unusual step on Friday of filing a motion to intervene in 
defense of these standards. They are so important to human 
health. The National Academy of Sciences has issued an 
extensive report documenting the serious impacts of 
environmental exposure to mercury on our children's lives. 
Scientists estimate that over 400,000 children are born each 
year exposed to levels of mercury that impedes their ability to 
thrive and to grow.
    ADA Environmental Solutions, this is a company in 
Littleton, Colorado, it has pioneered one of these mercury 
control technologies. It provides over a third of the bookings 
for mercury controls now in America. It announced its fourth 
quarter earnings were at 174 percent, dramatically up. It is 
hiring new people.
    And guess where ADAES is headed to? It is headed to China. 
It is going to be delivering advanced, made in America mercury 
control technology to China. It is going to be growing jobs in 
my home State of Colorado. And who is one of its major 
investors? Arch Coal. And in 2002, when Arch Coal first joined 
up with ADAES, then-Secretary of Energy Spencer Abraham said, I 
commend Arch Coal, you are helping to show the way how we can 
deliver clean air, healthy air in America through lower 
emissions.
    So there is just an enormous amount of work that people are 
doing to address these serious problems, and they are all quite 
serious. But with American innovation we can solve them, and in 
fact, we are. And we will be selling that technology to China.
    Senator Carper. Arch Coal?
    Ms. Patton. Yes, sir.
    Senator Carper. Now, that is a surprise.
    Dr. Lambert, same questions, please.
    Mr. Lambert. Thank you, Senator.
    Mercury is a persistent compound in the environment. The 
continued addition of mercury to the environment will lead to 
accumulation. It has long half-life, and it will persist and 
become remobilized and create exposures up the food chain 
through fish to humans, and particularly affect children.
    It is true that in the western United States long range 
transport across the Pacific from Asia does bring mercury to 
our coast, where it falls out, particularly in the Northwest, 
due to our wet climate. In the Northwest we don't have a lot of 
coal-fired plants. So the balance, or the budget there, looks 
different than other parts of the country. If you look in the 
Northeast, a large part of mercury pollution comes from outside 
States, and as the situation in Maryland, upwind transport is 
very important. So it is important to control from our local 
sources and additionally work toward global controls over time.
    Senator Carper. All right, thanks. My time has expired.
    Dr. Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    Mr. Alford, welcome back to the Committee. I want to hear 
your comments. I saw your written testimony, you said when 
electricity rates rise, so does the cost of doing business, 
putting investment, economic growth and jobs at risk. You 
further said that the rules are a cost increase, which crowds 
out other expenditures.
    Earlier today, Ms. McCarthy was here, and she seemed to 
have an opposite view. She said that he updated standards are 
going to support thousands of good paying jobs for workers, 
hire to build and install and operate the equipment to reduce 
emissions. Does the EPA's new restrictions create a big boon 
for business, and should the Government be placing these 
restrictions on many of our industries, as she has stated? Can 
you explain why you believe she is wrong, her strategy is 
completely wrong?
    Mr. Alford. Well, they are always wrong. EPA, any time they 
start analyzing cost and benefits, it is very far from reality. 
I think this is no exception. I think it is really insulting to 
say that we are going to put a bigger expense on you, and it is 
going to improve you economically.
    I am looking at the economic crunch, the way they are going 
about it. Now, I am all for a good, clean environment. But 
let's do it in a good, logical fashion to where we don't have 
to take as much pain as they want to give us. If I have a sore 
elbow, don't cut my arm off. Let's sit down and work this thing 
out.
    Senator Barrasso. As an orthopedic surgeon, I would focus 
on the elbow.
    [Laughter.]
    Senator Barrasso. You heard the testimony from Mr. James, 
kind of along the same line. So I would ask, are the members of 
your organization seeing what is happening in Avon Lake 
happening in other communities? Specifically, are those 
negative impacts that are happening in a town like Avon Lake 
happening nationwide, where school district budgets are going 
to be hurt, and children are going to be hurt, and emergency 
services for the sick and elderly are not going to be available 
because of the tax revenue that goes away and because of these 
regulations? I thought you might have an opinion on that.
    Mr. Alford. Yes, a big ripple effect. It hurts. The saying 
goes with us, when the mainstream gets a cold, we get 
pneumonia. We are always the first to be fired and the last to 
be hired. It is always a struggle.
    So they don't analyze it like they should. Where these coal 
plants are, these utility plants are right now, it is in about 
55 percent of the African-American business population. We, the 
African-American businesses, are strongest in the Southeast and 
then again, upper Midwest. So if you take a string and a pin 
and stick it in Nashville, Tennessee, and then go about 4 
inches on a map, 6 inches on a map with that pin, in that 
circular part, that is the Black business community of the 
United States. And that is exactly where these plants are 
located.
    Senator Barrasso. Thank you.
    Mr. James, can I ask you a little bit, you stated that 80 
people would be laid off at that coal-fired power plant at Avon 
Lake, and that their chances of easily finding work at the same 
pay and benefits--I am just curious what your thoughts would be 
on finding similar work at similar pay in the same community 
once the layoffs occur.
    Mr. James. Thank you, Senator Barrasso.
    Very difficult. As you know, Ohio has had a difficult 
struggle in this economic recession, as a traditional 
manufacturing economy. Many of the jobs that the State of Ohio 
had in the 1970s and 1980s are gone, have been shipped away to 
other countries or moved away. So to replace those 80 direct 
jobs will be very difficult, finding work either in Lorraine or 
Cleveland.
    If I may, it is more than just the 80 jobs. Certainly there 
has to be a multiplier effect of those 80 jobs, the people that 
shop and go out to dinner in Avon Lake. There is going to be 
additional secondary and tertiary loss of jobs because of those 
80 jobs.
    Senator Barrasso. You also talk about emergency medical 
services, budget has to be cut because revenue is not coming 
in, there is a loss of income taxes and a loss in property 
taxes that fund paramedics, ambulances, training and education 
of paramedics. What are the impacts of that going to be in 
terms of the overall health availability and care for the 
people in that community?
    Mr. James. Certainly there will be some direct health 
impacts, if the facility were to close. Some of the property 
taxes that are collected from the facility is used to fund our 
paramedic and firefighters. Without those paramedics and 
firefighters, I think there is a risk that Avon Lake wouldn't 
be able to adequately service its 23,000 residents, send 
ambulances to them in enough time, take them to the hospital, 
tend to them on an emergency basis. That will certainly have a 
health impact.
    Senator Barrasso. Do you think that is happening in other 
communities that have the same impact?
    Mr. James. I am certain of that, Senator. There are at 
least 9 other communities, 10 other communities in Ohio that 
are facing the exact same problems.
    Senator Barrasso. And Mr. Alford, you are seeing this 
nationwide; is that correct?
    Mr. Alford. Absolutely, sir. And another important point, 
in African-American communities, we are looking at 35 percent 
to 40 percent unemployment. The only way you are going to cure 
that unemployment is to create jobs and create businesses. So I 
think, No. 1, let's find a way to provide a paycheck. We will 
worry about the healthy after that paycheck starts coming.
    Senator Barrasso. Thank you.
    Thank you, Mr. Chairman.
    Senator Carper. Thanks very much.
    And I think, Senator Lautenberg, you are next.
    Senator Lautenberg. I am not a doctor, but my father died 
when he was 43, working in the mills. His brother died when he 
was 52, and their father died at 56, when they were working in 
the mills in Patterson, New Jersey. The uncle who had a tavern 
lived to be 102, and I am not advocating more drinking.
    [Laughter.]
    Senator Lautenberg. But I am saying that that environment, 
those jobs that my dad had and my uncle, my grandfather, in the 
final analysis, helped kill them. And Mr. James, believe me, 
and Mr. Alford, I do sympathize with the condition that arises 
and displacement as changes are made. The question is, do you 
ever invest today for better results tomorrow?
    According to the Clean Air Task Force, 2010, the Avon Lake 
plant was responsible for 29 premature deaths, 440 asthma 
attacks, 23 emergency visits as a result of asthma and 47 heart 
attacks, in the year 2010. It was no bed of roses before 
changes were made. And as a consequence, as we look around the 
country.
    In 1986 I wrote a law to stop smoking in airplanes. It hurt 
the cigarette companies but it permitted people who couldn't 
fly before--work in the air cabins, attendants and so forth--to 
finally do it. And we reduced the level of smoking across the 
world. Forgive the vanity, but it made a difference in how 
people treated cigarettes. It was a huge loss to the cigarette 
companies. They are still doing very well, unfortunately.
    So what I say, or I raise the question, I ran a big 
company, very big. Three of us started--the company has 45,000 
employees today. The company is ADP. They do the labor 
statistics, I was the founder of that, one of the three 
founders of that.
    So when I had a CEO, I looked at whether we would invest 
here or invest there. And maybe at first there were some costs 
involved. But the benefits long run had to be considered. So I 
ask you, Mr. James, Mr. Alford, is there any time at all that 
you bury your head a little bit--and I don't like people out of 
work, particularly in the minority communities. I lived in 
those communities as a child. And to say OK, we have to make an 
investment here.
    And what we hear from Ms. Patton and others, that the cost 
of change is grossly exaggerated by the proponents of status 
quo. Is there anything that we ought to do here, Mr. James? 
What do you think we ought to do about this?
    Mr. James. Thank you, Senator Lautenberg. I certainly 
understand and respect your point. As you may have heard, I 
spent a number of years as an assistant attorney general 
enforcing environmental laws. I certainly appreciate and 
respect their need. But at the same time, those laws need to be 
narrowly tailored to address specific issues, like mercury. It 
would be my understanding that the MATS rule goes beyond just 
narrowly tailored regulation to address mercury.
    So my response to you is that if environmental regulation 
can be balanced, if power companies can be provided enough time 
and the regulations can be narrowly balanced, I think we can 
achieve both appropriate environmental regulation as well as 
protecting the jobs and support that these kinds of facilities 
can provide to local communities.
    Senator Lautenberg. I think that it would, to me at least, 
would sound a little better balanced if you said we should 
continue to pursue cleaning mercury out of our system. We 
should pursue clean air altogether. We should try to reduce the 
number of cases of asthma, premature deaths. If the death is in 
your family, you don't look and say, what the hell are we 
spending all this money for.
    Mr. Alford. I agree. I absolutely agree with you, and I 
agree with Mr. James, it should be narrowly tailored. But I 
think the pain shouldn't be disproportionately given without 
further looking or analyzing----
    Senator Lautenberg. I am not a pain advocate.
    Mr. Alford. A member of mine just sent me a picture from 
the Park Hyatt Hotel in Shanghai. He had a view of the window 
there, and he is standing by the window. He is up about 120 
floors. You couldn't see beyond two blocks in downtown 
Shanghai.
    There is a new coal mine opening in China every week.
    Senator Lautenberg. Mr. Alford, I am pressured by the clock 
here. We have a mean Chairman. He will ring the bell.
    Mr. Alford. Yes, sir. I will close by saying, we need to 
address those issues, true.
    Senator Lautenberg. Yes, and I look at those issues, that 
is a major focus of mine. In the State of New Jersey, the most 
crowded State in the country, we have a section of the State 
that is very well off, and we have five of America's poorest 
cities in our midst. When I see them in a HeadStart program or 
something, I really feel good.
    I am a professional grandfather; you may have detected 
that.
    Thank you very much, Mr. Chairman.
    Senator Carper. I think that brings us pretty close to the 
close here. I don't believe Senator Alexander is going to be 
able to come back and ask questions of this panel.
    Sometimes when we conclude a hearing of this nature, I like 
to come back--we always ask our witnesses to give an opening 
statement, I am going to ask each one of you to take maybe 1 
minute, or more than 1 minute, just to share with us some 
closing thoughts that may have been generated by virtue of this 
conversation, what others have said, the questions that have 
been asked.
    Secretary Summers, why don't you take a minute, and we will 
conclude with Ms. Patton.
    Mr. Summers. Thank you, Senator Carper.
    I guess I would just say, these systems work very 
effectively. We have direct experience in Maryland. We have 
upgraded six coal-fired power plants, 13 units in those plants. 
They are all doing very well today. We have other plants that 
are proposed to be built in Maryland today. So the 
implementation of this law, our Healthy Air Act, which is 
essentially the same as what we are discussing today, MATS, has 
been very successful in Maryland.
    We have heard about all of the health effects, Maryland by 
virtue of being downwind from almost everyone except for 
Delaware, I guess, has some of the worst air quality remaining 
in the country. And we need these upwind sources to install the 
same kind of controls that we put into place. We believe that 
it is actually a boon for the economy. It has been in Maryland. 
Thank you very much.
    Senator Carper. Thank you, Secretary Summers.
    Dr. Lambert.
    Mr. Lambert. Thank you, Chairman Carper.
    We are blessed in the United States with clean air in many 
ways. We have seen tremendous improvements in air quality. I 
grew up in Los Angeles, and I have seen what was described. I 
have been to Mexico City, I have been to other places where the 
pollution remains a challenge.
    But our challenge here in the United States, even though 
you cannot see this pollutant, it is an insidious poison, it is 
in the air. And we have talked about how it affects children 
and pregnant women and fetuses. We get a wonderful co-benefit 
by scrubbing mercury out: all these other pollutants travel 
with it, which results in broad benefits for many Americans, 
particularly our seniors and those with pre-existing diseases 
like asthma.
    The scientific evidence is not debated. There are big 
benefits to reducing cardio-respiratory diseases from these 
additional pollutants.
    Senator Carper. Thank you, Dr. Lambert.
    Councilman James.
    Mr. James. Thank you, Senator Carper.
    My understanding of the MATS rule, the USEPA has looked at 
mercury and then looked at a number of co-benefits from the 
reduction of mercury, whether it is the reduction of other 
kinds of pollutants, such as PM, and other additional co-
benefits, such as perhaps several thousand transient jobs, 
several thousand permanent jobs. I am not an expert; I am not 
sure if those statistics are true.
    But what it does seem to me is that USEPA failed to take 
into account the co-costs of the mercury rule, the MATS rule, 
the costs that are associated with the loss of income tax and 
property tax, the loss that is associated with jobs and having 
vibrant communities.
    So I would ask you, I would ask the USEPA, as you are 
exercising your authority, as you are exercising your 
discretion, that you consider the co-costs of your rulemaking, 
of your authority. Thank you.
    Senator Carper. Thank you.
    Mr. Alford.
    Mr. Alford. I want to encourage this Subcommittee to have 
more hearings and more discussions. We applaud your efforts so 
far and we encourage you to continue on.
    I think like Maryland is suggesting to the upwind States to 
do a better job of environmental stewardship, the United States 
should do a better job of convincing other nations to do so, 
also. Do we trade with these culprits? Do we give financing or 
gifts to these culprits? I don't think we should. We should be 
a little harder.
    Senator Carper. All right, thank you, sir.
    Ms. Patton.
    Ms. Patton. On February 29th, 2012, GenOn filed a 10K 
statement with the United States Securities and Exchange 
Commission in which it indicated it had not made a final 
decision about the closure of the Avon Lake facility.
    Senator Carper. When?
    Ms. Patton. On February 29th.
    Senator Carper. Really?
    Ms. Patton. It indicated that it was considering a number 
of factors, including factors entirely unrelated to the Mercury 
and Air Toxics Standards that would ultimately inform its final 
judgment about the future of that plant.
    Senator Carper, we have models in our country of 
communities working together to meet these challenges. In my 
home State of Colorado, the State's leading power company 
worked together with Republican members of the general 
assembly, with Democratic members of the general assembly, with 
labor, with the American Lung Association, with concerned 
citizens. And it fashioned a plan that is exactly what Senator 
Lautenberg described. And that is the plan to deliver cleaner, 
healthier air for millions of people across the Colorado front 
range.
    And some of those transitions involved closures, closures 
of aging, high emitting, inefficient coal plants that were 
commissioned well before the Denver Broncos became an official 
charter member of the American Football League. And we are 
transitioning to a 21st century, clean, modern energy 
infrastructure. And we are doing it working together as a 
community in a way that will deliver cleaner, healthier air, a 
steady flow of electricity cost effectively. There are lots of 
great models out there in America of people working together to 
meet these challenges.
    Thank you, sir.
    Senator Carper. Thank you so much.
    I really thank you all for being here and being part of 
this conversation with us. These are important issues, not just 
for States like Maryland and Virginia, New Jersey, New York, 
and all the way up the East Coast who live in what we call the 
end of America's tailpipe. We love living in Delaware; it is a 
great place to live. But 90 percent of our air pollution 
literally comes from places outside of our State that we are 
unable to control, which as you might imagine is a source of 
great frustration and why we have been anxious to see the level 
of emissions from other States to be reduced.
    During one point in our hearing today I leaned over to 
Senator Barrasso, and I said, isn't the U.S. the Saudi Arabia 
of coal? And he said, yes. I said, isn't the U.S. on its way to 
becoming the Saudi Arabia of natural gas? And he said, yes, I 
think so. Then he told me that Wyoming is the Saudi Arabia of 
coal. I was born in West Virginia, and we are very proud of the 
fact that we produced a lot of coal there and provided a lot of 
electricity for folks around the country. Having said that, we 
also know now that burning coal, if we are not careful, if we 
are not smart about it, we can create enormous health problems 
for folks who happen to be downwind from us.
    While we are making progress, I like to say, if it isn't 
perfect, make it better. And we can do better still.
    I remember, Senator Lautenberg, about 7 or 8 years ago, 
after my first term here, I remember being visited by oh, gosh, 
8 or 10 CEOs from different utilities around the country. One 
fellow was from one of the utilities in the southern part of 
our country, sort of a curmudgeonly old fellow. We had been 
meeting for about an hour, wrapping it up, and he said, OK, 
Senator, here is what you all need to do. He said, you need to 
tell us what the rules are going to be--this was with respect 
to air pollution--tell us what the rules are going to be, give 
us some flexibility, give us a reasonable amount of time, and 
get out of the way. That is what he said. I will never forget 
those words.
    I thought that was pretty good advice for us then, on that 
issue, and it is good advice for us today.
    Mr. Alford, you said in your response to one of our 
questions, I believe, maybe during your testimony, I think you 
said essentially, relieve us from this hammer on our head with 
respect to the regulation that EPA is promulgating. While I am 
concerned about a hammer on anybody's head, I am also even more 
concerned about the mercury in our bodies and in the bodies of 
child bearing women all over this country. I think we can be 
smart, to avert the hammer on our heads. And if we are smart, 
we can do that and reduce the fear and the reality of what 
happens when women of child bearing age with elevated levels of 
mercury give birth to babies.
    We always learn things at these hearings. For me, one of 
the most interesting take-aways was the news that Southern 
Utility believes now, given the changes to modifications that 
EPA has made to their original proposed regulation, that they 
will be able to comply with this regulation as it has finally 
been promulgated. And they can do so for about one-third less 
cost than they had previously expected. I think as Ms. Patton 
said in her testimony, AP, big utility in the Midwestern part 
of our State, that they expect they are going to be able to 
comply at about one-third the cost of what they originally 
anticipated. That is very encouraging news.
    So here we are, we are coming to the end.
    Senator Lautenberg, go ahead, please.
    Senator Lautenberg. He is a generous man, also; he wasn't 
just mean, our Chairman.
    A couple of questions. Secretary Summers, has Maryland 
experienced any electricity reliability problems as a result of 
the MACT pollution standards?
    Mr. Summers. None at all.
    Senator Lautenberg. Dr. Lambert, the standards set 
pollution limits on mercury from power plants for the first 
time. Based on your research, can you explain how mercury and 
other toxic air pollution affects the health of children? Is 
there a general rule?
    Mr. Lambert. The most sensitive system is the developing 
brain. So it is loss of memory, learning disabilities, 
attention deficits. These are permanent, life-long consequences 
for disturbance of early brain development.
    Senator Lautenberg. And Ms. Patton, in 1990 Congress 
directed EPA to set mercury air toxic pollution standards by 
the year 2000. I am pleased that these standards are being 
implemented; Americans have waited far too long for clean air. 
Why were these important standards delayed for such a long 
time, in your judgment?
    Ms. Patton. Senator Lautenberg, there has been, it is a 
tragic delay, right, because the costs are imposed on our 
children's health. And the tragedy is that we have made in 
America solutions to meet these challenges. And the delay has 
been due to polarization, it has been due to agencies taking 
shortcuts that are inconsistent with the law and fly in the 
face of science. But today we now have, finally, long overdue, 
in place vital standards to protect our children's health, to 
protect our families' health. And we cannot afford for the 
delay, the costs are borne by our children.
    Senator Lautenberg. And I close, Mr. Alford, I understand 
your frustration and why it is that as we see African-American 
development, business owners and professionals and so forth, 
that we ought not to make the load any heavier. But the 
question is, is a little bit heavier load right now worth the 
savings in life and health that we have in the future?
    Mr. Alford. Savings of life, poverty brings far worse 
health than mercury coming out of a coal plant or a utility 
plant. Violence, crime, these kids that I see are far more 
likely to get a bullet in the head than asthma. And that is the 
reality of it. And that is because of the economic consequences 
of bad policy and practices, much of which comes from this 
Capitol Hill.
    Senator Lautenberg. Yes, but we shouldn't, because of other 
problems, decide that we don't want to solve this problem. That 
is where I disagree with you.
    Mr. Alford. Prioritize, is what I am saying.
    Senator Lautenberg. Yes.
    And Mr. James, you have had a barrel full of experiences in 
your career, and we can disagree on a particular subject. But I 
don't see you wanting to say, well, let's perpetuate the 
exposure to mercury and all those things.
    So thank you. Thank you all for your testimony. And Ms. 
Patton, I have an active interest in the State of Colorado. I 
have two grandchildren, a son, and his wife who have made their 
lives living in Edwards, Colorado.
    Thank you all. This was an excellent hearing, Mr. Chairman, 
and my compliments to you for getting the exposure that we 
wanted here.
    Senator Carper. Before we adjourn, I will just add one 
quick P.S. One of the previous administrators at EPA was the 
former Governor of our neighboring State, New Jersey. And that 
is Christy Whitman, good friend.
    I hear Senator Lautenberg talking about his children and 
the love and affection he has for them. I am reminded of what 
Christy Whitman told me several years ago when she told me that 
she had become a grandmother for the first time. She said, 
grandchildren are one of the few things in life that are not 
overrated. Not overrated.
    With that, the members of the Committee will have 2 weeks 
to submit any additional questions. We would ask that you 
respond promptly.
    Again, we are grateful to all of you for being here today 
and for participating in what I think was quite a good hearing. 
Thanks so much.
    This hearing is adjourned.
    [Whereupon, at 12:03 p.m., the Committee was adjourned.]
    [Additional statements submitted for the record follow]

                 Statement of Hon. Benjamin L. Cardin, 
                U.S. Senator from the State of Maryland

    Thank you, Mr. Chairman, for holding this hearing. Thank 
you also to our witnesses for coming to testify this morning.
    These standards are an important step for protecting public 
health and improving the Nation's economy.
    We are all aware of the health impacts air pollution has on 
our most vulnerable populations: children, the elderly, and our 
poorer populations. Air pollution threatens those with asthma 
and respiratory problems and results each year in 12 million 
lost work days, 14 million lost school days, and 5,000 deaths.
    Air pollution also leads to cancers and neurological, 
developmental, and reproductive problems.
    Mercury, of which power plants are the single largest 
source of mercury emissions in the United States, causes 
serious developmental problems in children and infants.
    The deposition of mercury into inland and coastal waters 
impacts our fisheries and introduces another pathway by which 
our kids, and anyone who fishes, can be exposed to mercury.
    The Mercury and Air Toxics Standards can help us better 
protect our kids, our citizens, and our waters.
    In 2006 Maryland responded to concerns about air pollution 
by enacting the Maryland Healthy Air Act. The Healthy Air Act 
sought to reduce Mercury, SO<INF>x</INF>, and NO<INF>x</INF> 
emissions by implementing the toughest power plant emissions 
law on the East Coast and setting an ambitious 3-year timeline.
    Within 3 years Maryland saw reductions from a 2002 baseline 
of 90 percent in mercury, over 80 percent in sulfur dioxide, 
and over 70 percent in NO<INF>x</INF>.
    Maryland's ambitious approach did not harm the State's 
economy. In fact, energy companies reported substantial 
economic benefits from implementing the new standards.
    For example, the Brandon Shores coal-fired power plant 
generated nearly 4 million man-hours of labor from 
Constellation's $1 billion investment. This included 26 months 
of work for 2,000 skilled construction workers.
    Unrepresented in this figure are the additional jobs in 
manufacturing and distribution associated with the production 
of technologies and equipment purchased by the plant.
    For these reason industry organizations like Ceres 
(pronounced Series) and the American Boiler Manufacturers 
Association as well companies like WL Gore, a major employer in 
Elkton, Maryland, that manufactures clean air technologies like 
baghouse hardware here in the United States, all support more 
clean air regulations that are more protective of public 
health.
    Constellation's 12,000-megawatt Brandon Shores power plant, 
located near Glen Burnie, Maryland, is now one of the cleanest 
coal-burning power plants in the country and achieved this 
without substantial increases in utility rates.
    The controls required by Maryland's Healthy Air Act are 
very similar to those required by EPA's Mercury and Air Toxics 
Standards.
    Maryland's experience shows that an aggressive timeline is 
not only achievable but is also desirable. Plants are capable 
of meeting aggressive timelines, and the benefits are 
unparalleled.
    Air pollution controls protect public health and save 
billions of dollars in associated medical costs. And contrary 
to rhetoric claiming that these controls are job killing, 
Maryland's experience demonstrates that implementing air 
pollution controls can create well paying jobs.
    Maryland's experience also shows that we need a national 
standard to effectively address air pollution. Air pollution 
travels, and out of State impacts are felt no matter how much 
we control our in-State sources.
    Despite our stringent State clean air law and one of the 
cleanest power generation fleets in the country, 12 of 
Maryland's 15 counties had 55 days or more last year during 
which ground-level ozone was at code orange or code red levels. 
Implementing national standards will help us better address 
pervasive air pollution threats.
    EPA's Mercury and Air Toxics Standards are a necessary step 
toward protecting our citizens' health. The decision to 
promulgate these standards is not a political one, as our 
courts recognized when ordering EPA to issue these standards.
    It is time to leave behind the disingenuous debates and 
instead recognize the public health and economic benefits that 
these standards can help us achieve.

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    Chairman Carper, thank you for the hearing focusing on the 
new MATS, or Utility MACT, rule--the most costly rule in the 
history of the EPA and one that typifies President Obama's war 
on affordable energy. I would also like to thank the witnesses 
for being here today.
    First, I'll say that Republicans are for clean air. In 
fact, I championed one of the first bills to reduce mercury--
the Clear Skies Act. That legislation struck a balance between 
environmental protection and economic development. 
Unfortunately, Clear Skies was killed by radicals in the 
environmental movement because it didn't require reductions in 
carbon--in other words, it didn't cause enough economic pain. 
In 2005, when the Bush administration issued mercury 
regulations under the Clean Air Act, they also fell victim to 
environmental groups' court challenges. So today we would do 
well to remember that it is Republicans who first sought to 
reduce mercury, and it's the environmental establishment that 
has stopped progress for more than a decade.
    We now debate EPA's replacement regulations. But this time 
no attempt has been made to balance environmental protection 
and economic development. In fact, the Utility MACT rule is at 
the heart of the Obama administration's war on affordable 
energy. Mirroring Obama's cap and trade agenda, this regulation 
isn't about saving lives or the environment. It's part of a 
calculated effort to kill traditional forms of energy, like 
coal, to benefit Obama's political allies. Backed by false 
claims and EPA propaganda, this regulation will fulfill Obama's 
campaign promise of skyrocketing electricity rates. \1\
---------------------------------------------------------------------------
    \1\ Picket, Kerry. ``Obama: Energy prices will skyrocket under my 
cap and trade plan,'' News Busters. 3 November 2008 < http://
newsbusters.org/blogs/kerry-picket/2008/11/02/obama-energy-prices-will-
skyrocket> 19 March 2012.
---------------------------------------------------------------------------
    Today we're going to hear about the benefits of this rule 
ad nauseam. These claims are disingenuous and misleading. The 
rule is ostensibly designed to reduce hazardous air pollutants 
(HAP), namely mercury. But over 99 percent of the benefits 
claimed by EPA are from reducing fine particle matter (PM) \2\ 
--not mercury--even though PM is strictly regulated under other 
CAA programs, including the National Ambient Air Quality 
Standard (NAAQS) for PM<INF>2.5</INF>. Worse yet, nearly all of 
EPA's alleged benefits occur at levels well below the NAAQS. 
\3\ This means EPA is justifying the rule by cleaning up what 
it simultaneously defines as clean air--duplicity at its best.
---------------------------------------------------------------------------
    \2\ EPA, ``National Emission Standards for Hazardous Air Pollutants 
from Coal- and Oil-fired Electric Utility Steam Generating Units and 
Standards of Performance for Fossil-Fuel-Fired Electric Utility, 
Industrial-Commercial-Institutional, and Small Industrial-Commercial-
Institutional Steam Generating Units,'' page 683-4. http://www.epa.gov/
mats/pdfs/20111216MATSfinal.pdf.
    \3\ EPA, ``Regulatory Impact Analysis for the Final Mercury and Air 
Toxics Standards,'' page ES-4. http://www.epa.gov/ttn/ecas/regdata/
RIAs/matsriafinal.pdf.
---------------------------------------------------------------------------
    In fact, EPA's analysis shows us that mercury is the only 
HAP where any health benefits can be quantified. These benefits 
are estimated to be $6 million per year--at the most. At an 
estimated cost of nearly $10 billion, the benefits are exceeded 
by approximately 1,600 to 1. \4\ You can see the gulf between 
benefits and costs in this chart, which I request be entered 
into the record.
---------------------------------------------------------------------------
    \4\ EPA, ``National Emission Standards for Hazardous Air Pollutants 
. . . ,'' page 664.
---------------------------------------------------------------------------
    This rule isn't about public health. It's about one thing--
killing coal--as a gift to Obama's political allies: the 
environmental movement and crony capitalists who profit through 
Government intervention. The Obama administration could not 
pass cap and trade, so it is using EPA regulations to back-door 
its global warming agenda.
    As we will hear from our witnesses today, working families 
will pay the price. Indeed, the plant being closed in Avon 
Lake, Ohio, is but one example of what is happening in cities 
and towns across the country as a result of EPA's rules. In 
fact, as of today nearly 22 gigawatts (that's the equivalent of 
approximately 50 medium-sized plants) operating in 20 States 
are slated to shut down, with more expected. These closures 
have been projected to increase electricity prices by as much 
as 20 percent, sending a ripple effect though the economy that 
could kill up to 1.64 million jobs. \5\ You can see the impact 
on retail electricity prices in this poster. I ask that both 
this poster and the underlying study be added to the record.
---------------------------------------------------------------------------
    \5\ ``Potential Impacts of EPA Air, Coal Combustion Residuals, and 
Cooling Water Regulations,'' National Economic Research Associates for 
the American Coalition for Clean Coal Electricity, September 2011.
---------------------------------------------------------------------------
    EPA's environmental allies blame the plants' closing on 
natural gas prices and other market factors. But nearly every 
company closing plants has pointed directly at EPA's rules as 
the reason. Admitting as much, Administrator Lisa Jackson said 
in a recent interview, ``EPA's role is . . . to level the 
playing field'' so that coal-fired generation costs more 
relative to alternatives. This quote nicely captures EPA's 
global warming agenda--use the power of the Government to 
destroy one sector of the economy so that others may profit.
    This regulation needs to be stopped. This is why I have 
introduced a resolution of disapproval which seeks to overturn 
Utility MACT. Contrary to claims, however, it doesn't amend the 
Clean Air Act or keep the agency from regulating mercury. 
Rather, it would send the rule back to EPA to be rewritten in a 
manner consistent with congressional direction--namely, in a 
way that reduces emissions but that doesn't unnecessarily kill 
jobs so that others may profit. \6\
---------------------------------------------------------------------------
    \6\ ``Impact of a Resolution of Disapproval Under the Congressional 
Review Act on an Agency's Authority to Issue Subsequent Regulations'' 
February 8, 2012.

    [The referenced material follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    [Additional material submitted for the record follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
  
    
                                 [all]
</pre></body></html>
